No.
IN THE
SUPREME COURT OF THE UNITED STATES
RIGOBERTO CABRERA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
For the Eleventh Circuit

APPENDIX
Rigoberto Cabrera #33513-018
F.C.I. Miami Low-Security
Post Office Box 779800
Miami, Florida 33177
pro se

Appendix Table of Contents
Order Denying COA Case No. 20-10772-J

A-l

Order Adopting Report of Magistrate Judge

A-2

Report of Magistrate Judge

A-3

Order Requiring Movant to file Succinct Amended §2255 Motion

A-4

Letter from Supreme Court Denying Certiorari
Cabrera v United States, Case No. 16-5085 (2016)

A-5

Order Denying Rehearing Case No. 14-10541-GG

A-6

United States v Cabrera, 635 Fed. Appx. 801 (11th Cir. 2015)

A-7

Amended Judgment Imposing Sentence

A-8

Superseding Indictment

A-9

Indictment

A-10

Email Between Calabrese and O'Brien (Ex I)

A-ll

Statutory and Other Provisions Involved

A-12

A-l

Case: 20-10772

Date Filed: 08/06/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10772-J

RIGOBERTO CABRERA,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.

Appeal from the United States District Court
for the Southern District of Florida

ORDER:
Rigoberto Cabrera moves for a certificate of appealability, as construed from his notice of
appeal, in order to appeal the denial of his 28 U.S.C. § 2255 motion to vacate. His motion is
DENIED because he has failed to make a substantial showing of the denial of a constitutional
right. See 28 U.S.C. § 2253(c)(2).

/s/ Britt C. Grant
UNITED STATES CIRCUIT JUDGE

A-2

>

Case l:17-cv-23627-JIC Document 20 Entered on FLSD Docket 02/13/2020 Page 1 of 6

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 17-23627-CIV-COHN/REID
(CASE NO. 13-20339-CR-COHN)
RIGOBERTO CABRERA
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.

ORDER ADOPTING REPORT OF MAGISTRATE JUDGE AND DENYING MOTION
TO HOLD $ 2255 MOTION IN ABEYANCE
THIS CAUSE is before the Court upon the Report of Magistrate Judge [DE 14]
(“Report”) submitted by United States Magistrate Judge Lisette M. Reid regarding
Movant Rigoberto Cabrera’s Amended Motion Under 28 U.S.C. § 2255 to Vacate, Set
Aside, or Correct Sentence [DE 9] and Movant’s Motion to Hold § 2255 Motion in
Abeyance [DE 16] (collectively, “Motions”). Pursuant to 28 U.S.C. § 636(b)(1), the
Court has conducted a de novo review of the Motions, the Report, Movant’s Objections
[DE 18], the Government’s Response to Movant’s Objections [DE 19], and the record in
this case, and is otherwise advised in the premises. Upon careful consideration, the
Court will adopt the Report, overrule Movant’s objections, and deny the Motions.
As detailed in the Report, Movant was convicted of numerous charges stemming
from an income tax fraud scheme. DE 14 at 2-3. Movant and his associates filed
returns for taxpayers and themselves which “fraudulently claimed unfounded refunds
based on Form 2439, an obscure IRS form that allows taxpayers a refund for taxes
already paid on previously taxed ‘undistributed long term capital gains.’” United States

Case l:17-cv-23627-JIC Document 20 Entered on FLSD Docket 02/13/2020 Page 2 of 6

v. Cabrera. 635 F. App’x 801,803-04 (11th Cir. Dec. 30, 2015). At trial, “[t]he
government presented dozens of witnesses and scores of exhibits tying Cabrera to the
fraudulent returns and to attempts to launder the proceeds.” ]cf. at 804. The Eleventh
Circuit described the government’s case as “thorough and compelling.” jd. After a fiveday jury trial, Movant was found guilty of conspiracy to defraud the government with
respect to claims, in violation of 18 U.S.C. § 286 (Count 1), eighteen counts of making
false, fictitious and fraudulent claims, in violation of 18 U.S.C. § 287 (Counts 2 through
9, 11 through 20), conspiracy to commit wire fraud in violation of 18 U.S.C. § 1349
(Counts 21), four counts of wire fraud, in violation of 18 U.S.C. § 1343 (Counts 22
through 25), conspiracy to commit money laundering, in violation of 18 U.S.C. § 1956(h)
(Count 26), and four counts of money laundering, in violation of 18 U.S.C. §
1956(a)(1)(B)(i) (Counts 27 through 30).
Prior to sentencing, a Presentence Investigation Report (“PSI”) was prepared
which set forth a loss amount of $10,242,667. Based on a total offense level 37 and
criminal history category IV, the advisory guideline range was 292 to 365 months
imprisonment. The Court overruled Movant’s objections to the PSI, adopted the PSI’s
guideline calculations, and imposed a bottom of the guidelines range sentence of 292
months. DE-Cr 125.1 Movant appealed his conviction and sentence, and the Eleventh
Circuit affirmed. DE-Cr 148. Now, in his § 2255 Motion, Movant raises three grounds
for relief:
1. Ineffective assistance of counsel in failing to object to the amount of
intended loss;

1 “

DE-Cr” citations refer to docket entries in the related criminal proceedings, Case No. 13-20339-CRCOHN. “DE” citations refer to docket entries in the instant civil proceedings.

2

Case l:17-cv-23627-JIC Document 20 Entered on FLSD Docket 02/13/2020 Page 3 of 6

2. Ineffective assistance of counsel in failing to subpoena witnesses and
documents and failing to use prior inconsistent grand jury testimony
and documents in evidence to impeach the testimony of key
government witnesses that the Movant had prepared the fraudulent tax
return which served as the basis for Count 2 of the Superseding
Indictment; and
3. That the Government violated Movant’s due process rights by failing to
comply with Giqlio v. United States. 405 U.S. 150 (1972).
See DE 9. Movant has also filed a separate Motion to Hold § 2255 Motion in Abeyance
wherein he states that he intends to seek relief pursuant to the First Step Act of 2018
(“First Step Act”), Pub. L. 115-391 and requests that the Court hold his § 2255 Motion in
abeyance pending resolution of his forthcoming motion under the First Step Act. DE 16.
In her Report, Judge Reid concludes that Movant is entitled to no relief. First,
with respect to Movant’s counsel’s failure to object to the amount of intended loss
Judge Reid found that Movant cannot establish deficient performance or prejudice
under Strickland v. Washington. 466 U.S. 668 (1984) arising from counsel’s failure to
make this objection because the loss figure was correct. DE 14 at 16-18. Judge Reid
also concluded that Movant’s second claim fails because he has not shown that the
result of the trial would have been different as to Count 2 had his counsel attempted to
establish that Movant could not have filed the return which served as the basis for
Count 2 because it was filed on the same date that Movant was released from
immigration custody. kk at 18-20. Judge Reid noted that while the initial indictment
alleged that this return was filed on January 24, 2009—the day Movant was released
from immigration custody—the superseding indictment correctly reflected that the
fraudulent Form 2439 was not attached to the original form, but rather was attached to
an amended return filed on or about May 7, 2009. ]cL Finally, Judge Reid concluded

3

Case l:17-cv-23627-JIC Document 20 Entered on FLSD Docket 02/13/2020 Page 4 of 6

that Movant was entitled to no relief with respect to his third claim because he has not
demonstrated that the Government’s witnesses testified falsely or that the Government
suborned perjury, id. at 20-24.
Movant’s Objections are essentially a repetition of the arguments he advanced in
his Motion. First, he claims that Special Agent Calabrese’s calculation of the intended
loss figure that was in the PSI is speculative and unreliable. DE 18 at 3-4. The Court
disagrees. The evidence linking Movant to the tax returns that formed the basis for
Agent Calabrese’s loss figure is overwhelming and certainly sufficient to satisfy the
preponderance of the evidence burden that the Government bore at sentencing.
Movant relies on Agent Calabrese’s use of the word “could” in her Declaration2 as
support for his argument to the contrary. DE 18 at 2 (“her affidavit merely states that
these additional tax returns ‘Could’ be linked to Cabrera. This is far from the standard
of proof required to use those tax returns as relevant conduct.”) (emphasis in original).
Clearly, however, this language in no way suggests that the Government was unable to
prove the loss figure by a preponderance of the evidence.

i

Next, Movant’s Objections relating to his second and third claims both primarily
concern the testimony of the Government’s witness Victoria O’Brien. DE 18 at 5-7.
Movant claims that she identified January 24, 2009 as the filing date of the amended
return that served as the basis for Count 2. Id at 5. Thus, Movant argues that had his
counsel clarified on cross-examination that the amended return was filed on that date,
he could have shown that it would have been impossible for Movant to have filed the
amended return because he was in custody on that date. ]dL at 7. The Court agrees

2 Agent Calabrese stated that, during her investigation, she “compiled a list of taxpayers whose tax filings
could be linked to Cabrera.” DE 11-2 jf 3.

4

Case l:17-cv-23627-JIC Document 20 Entered on FLSD Docket 02/13/2020 Page 5 of 6

with Judge Reid, however, that even if Movant’s counsel had attempted to make this
showing, the result of the trial would not have been different. This is because Ms.
O’Brien’s testimony was clear that it was the original return—not the fraudulent
amended return—that was filed on January 24, 2009. See DE-Cr 138 at 150:3-21.
While there is arguably some ambiguity in Ms. O’Brien’s later testimony regarding the
precise date the amended return was filed, Movant has not shown how he was
prejudiced by his counsel’s failure to attempt to resolve this ambiguity. That is, even if
May 7, 2009 was the date the amended return was processed by the IRS—as Movant
contends—as opposed to the date the amended return was received by the IRS, this
would still not have shown that it would have been impossible for Movant to file the
amended return due to his incarceration on January 24, 2009 because the evidence
was that the amended return was filed by mail or filed as a walk-in some time after the
original return was filed on January 24, 2009.
Finally, turning to Movant’s Motion to Hold § 2255 Motion in Abeyance, the Court
notes that this Motion was filed on December 8, 2019. DE 16. As of the date of this
Order, over two months later, Movant has yet to seek relief under the First Step Act.
Accordingly, the Court declines to hold Movant’s § 2255 Motion in abeyance indefinitely
pending Movant’s forthcoming motion under the First Step Act. Additionally, it is unclear
how Movant would benefit from the First Step Act in this case, given that none of
Movant’s charges involve crack cocaine. In light of the foregoing, it is hereby
ORDERED AND ADJUDGED as follows:
1. The Report of Magistrate Judge [DE 14] is ADOPTED in its entirety.
2. Movant’s Objections [DE 19] are OVERRULED.

5

Case l:17-cv-23627-JIC Document 20 Entered on FLSD Docket 02/13/2020 Page 6 of 6

3. Movant’s Amended Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside, or
Correct Sentence [DE 9] is DENIED.
4. Movant’s Motion to Hold § 2255 Motion in Abeyance [DE 16] is DENIED.
5. A certificate of appealability is DENIED. The Court notes that pursuant to
Rule 22(b)(1) of the Federal Rules of Appellate Procedure, Movant may now
seek a certificate of appealability from the Eleventh Circuit.
6. The Clerk of Court is directed to CLOSE this case for all purposes and DENY
as moot all pending motions.
DONE AND ORDERED in Chambers at Fort Lauderdale, Broward County,
Florida, this 12th day of February, 2020.

/ JAIV ES I. COHN
Unijed States District Judg«K
Copies provided to:
United States Magistrate Judge Lisette M. Reid
Counsel of record via CM/ECF
Pro se parties via U.S. mail to address on file

6

V

*

A-3

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page lot27

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 17-23627-CV-COHN
CASE NO. 13-20339-CR-COHN
MAGISTRATE JUDGE REID
RIGOBERTO CABRERA,
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.

REPORT OF MAGISTRATE JUDGE
RE MOTION TO VACATE - 28 U.S.C. § 2255
I. Introduction
Movant, Rigoberto Cabrera (“Movant”), has filed this pro se motion to
vacate, pursuant to 28 U.S.C. § 2255, attacking the constitutionality of his
convictions and sentences for conspiracy to file false claims and related offenses,
entered following a jury verdict in Case No. 13-20339-CR-Cohn. For the reasons
explained in detail below, Movant is not entitled to habeas coipus relief.
This Cause has been referred to the undersigned for consideration and report
pursuant to 28 U.S.C. § 636(b)(1)(B), S.D. Fla. Admin. Order 2019-02, and Rules 8
and 10 Governing Section 2255 cases in the United States District Courts.

1

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 2 of 27

II. Claims
Construing the § 2255 motion liberally as afforded pro se litigants, pursuant
to Haines v. Kemer, 404 U.S. 519, 520-21 (\912)(per curiam), the Movant raises
the following three grounds for relief:
1.

He was denied effective assistance of counsel, where his lawyer
failed to object to the amount of intended loss at sentencing, and
then failed to raise the issue on appeal. [CV ECF No. 9, p. 3; CV
ECF No. 8-1, p. 2],

2.

He was denied effective assistance of counsel, where his lawyer
failed to subpoena witnesses and documents, and failed to use
prior inconsistent grand jury testimony and documents in
evidence to impeach the testimony of key government witnesses
that the Movant had prepared the fraudulent tax return, which
served as the basis for Count 2 of the Superseding Indictment.
[CV-ECF No. 9, p. 5; ECFF No. 8-1, p. 3],

3.

The government violated the Movant’s due process rights by
failing to comply with Giglio} [ECF No. 9, p. 9; ECF No. 9-1,
p. 6].
III. Procedural Background
A. Indictment and Verdict

Movant was charged with and found guilty of conspiracy to defraud the
government with respect to claims, in violation of 18 U.S.C. § 286 (Count 1),
eighteen counts of making false, fictitious and fraudulent claims, in violation of 18
U.S.C. § 287 (Counts 2 through 9,11 through 20), conspiracy to commit wire fraud,

Giglio v. United States, 405 U.S. 150 (1972).

2

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 3 of 27

in violation of 18 U.S.C. § 1349 (Counts 21), four counts of wire fraud, in violation
of 18 U.S.C. § 1343 (Counts 22 through 25), conspiracy to commit money
laundering, in violation of 18 U.S.C. § 1956(h) (Count 26), and four counts of money
laundering, in violation of 18 U.S.C. § 1956(a)(l)(B)(i) (Counts 27 through 30),
following a jury verdict. [CR ECF Nos. 50; 96; 126].
B. Sentence and Direct Appeal
Prior to sentencing, a Presentence Investigation Report (“PSI”) was prepared,
grouping Counts 1, 2 through 9, and 11 through 20, because the offense level for
these offenses is largely determined based on the total amount of harm or loss,
pursuant to U.S.S.G. § 3D1.2(d). (PSI ^ 19). The money laundering counts, Counts
26, and 27 through 30, were also grouped because the offense level is also based on
the amount of harm or loss. (PSI ^ 20). The fictitious claims/wire fraud counts were
grouped together with the money laundering offenses. (PSI ^ 21). The PSI
determined that the underlying offense from which the laundered funds were derived
was wire fraud, in violation of 18 U.S.C. § 1343, and set the base offense level at
level 7. (PSI Tf 23). Because the offense carries a statutory maximum term of twenty
years imprisonment, and Movant was responsible for a loss of $10,242,667, an
additional twenty levels were added to the base offense level, pursuant to United
States Sentencing Guidelines (“U.S.S.G.”) § 2Bl.l(b)(l)(K) (U. S. Comm’n 2013).
(PSI ^ 23). An additional four levels were added to the base offense level based on
3

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 4 of 27

specific offense characteristics. (PSI 1ffl 24-25). Four more levels were added
because it was determined that Movant was an organizer or leader of the criminal
activity which involved five or more participants or was otherwise extensive,
pursuant to U.S.S.G. § 3Bl.l(a). (PSI 1f 27). The total adjusted offense level was
thus set at level 37. (PSI If 32).
Next, the probation officer determined Movant had a total of eight criminal
history points, resulting in a criminal history category IV. (PSI 1ffl 48-50). Based on
a total offense level 37 and a criminal history category IV, the advisory guideline
range was 292 to 365 months imprisonment. (PSI H 80). Statutorily, as to Count 1,
Movant faced zero to ten years imprisonment for violation of 18 U.S.C. § 286. (PSI
U 79). As to Counts 2 through 9 and 11 through 20, Movant faced a term of zero to
five years imprisonment for violation of 18 U.S.C. § 287. (Id.). Regarding Counts 21
through 25, Movant faced zero to twenty years imprisonment for violation of 18
U.S.C. § 1343. (Id.). Finally, as to Counts 26 through 30, Movant faced a term of
zero to twenty years imprisonment for violation of 18 U.S.C. § 1956(a)(l)(B)(i).
(Id.). Pursuant to U.S.S.G. § 5G1.2(d), if the sentence imposed on the count carrying
the highest statutory maximum is less than the total punishment, then the sentence
imposed on one or more of the other counts shall run consecutively, but only to the
extent necessary to produce a combined sentence equal to the total punishment. (PSI
H80).
4

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 5 of 27

Movant filed objections to the PSI, claiming the probation officer erroneously
failed to group the wire fraud counts with the money laundering counts, and
erroneously added four levels based on specific offense characteristics on the basis
that it constitutes double punishment for the same conduct. [CR ECF No. 116].
Movant further argued that the guidelines should have been computed under
U.S.S.G. § 2B1.1 and not § 2S1.1, which would have resulted in a lower advisory
guideline range. (Id.). Movant also requested a downward variance and that the court
impose a reasonable sentence no greater than 180 months imprisonment. (Id.).
On January 24, 2014, Movant appeared for sentencing. [CR ECF No. 124],
The court overruled Movant’s objections, adopted the PSI, and sentenced Movant to
a total term of two-hundred and ninety-two months of imprisonment, consisting of:
(1) one-hundred and twenty months of imprisonment as to Count 1; (2) sixty months
of imprisonment as to Counts 3 through 9 and 11 through 20; (3) two hundred and
forty months of imprisomnent as to Counts 21 through 30; and, (4) a consecutive
fifty-two months of imprisonment as to Count 2, to be followed by a total term of
thirty-six months of supervised release, and imposed restitution in the amount of
$1,526,622. [CR ECF No. 126],
Movant prosecuted a direct appeal raising the following arguments: (1) there
was insufficient evidence to support the convictions; (2) his due process rights and
Fifth Amendment rights were violated by the government who failed to produce the
5

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 6 of 27

“uncharged false returns” prior to the testimony of a government witness; and,
(3) the trial court erred in calculating Movant’s advisory guidelines. See United
States v. Cabrera, 635 F. App’x 801 (11th Cir. Dec. 30, 2015)(unpublished); [CR
ECF No. 148]. Certiorari review was denied on October 3, 2016. See Cabrera v.
United States, 137 S.Ct. 176 (2016); [CR ECF No. 149].
For purposes of the federal one-year limitations period, the judgment of
conviction in the underlying criminal case became final on October 3, 2016, when
the Supreme Court denied certiorari review. See Gonzalez v. Thaler, 565 U.S. 134,
149-50 (2012); Phillips v. Warden, 908 F.3d 667, 672 (11th Cir. 2018). At the latest,
Movant was required to file this motion to vacate within one year from the time his
conviction became final, or no later than October 3, 2017. See 28 U.S.C.
§ 2244(d)(1)(A); Griffith v. Kentucky, 479 U.S. 314, 321 n.6 (1986); Downs v.
McNeil, 520 F.3d 1311, 1318 (11th Cir. 2008).
C. § 2255 Motions
Movant returned to this court timely filing his initial § 2255 motion to vacate
on September 29,2017, pursuant to the mailbox rule, after he signed and then handed
it to prison officials for mailing. [CV ECF No. 1, p. 12], See Washington v. United
States, 243 F.3d 1299,1301 (11th Cir. 2001).The movant filed his Amended § 2255
on October 23, 2017, after expiration of the one-year limitations period. However,
the claims raised in the amended motion are timely because they relate back to the
6

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 7 of 27

timely filed initial motion. See Davenport v. United States, 217 F.3d 1341 (11th Cir.
2000).2
IV. Standard of Review
A. Section 2255
Because collateral review is not a substitute for direct appeal, the grounds for
collateral attack on a final judgment, pursuant to 28 U.S.C. § 2255, are extremely
limited. A prisoner is entitled to relief under § 2255 if the court imposed a sentence
that (1) violated the Constitution or laws of the United States, (2) exceeded its
jurisdiction, (3) exceeded the maximum authorized by law, or (4) is otherwise
subject to collateral attack. See 28 U.S.C. § 2255(a); McKay v. United States, 657
F.3d 1190, 1194 n.8 (11th Cir. 2011). Thus, relief under § 2255 is reserved for
transgressions of constitutional rights, and for that narrow compass of other injury
that could not have been raised on direct appeal and would, if condoned, result in a
complete miscarriage of justice. United States v. Frady, 456 U.S. 152, 165 (1982);
Lynn v. United States, 365 F.3d 1225, 1232 (11th Cir. 2004)(citations omitted). If a
court finds a claim under § 2255 valid, the court shall vacate and set the judgment
aside and shall discharge the prisoner, grant a new trial, or correct the sentence. 28

2In Davenport v. United States, 217 F.3d 1341,1346 (11th Cir. 2000), the Eleventh Circuit
held that where a movant adds new claims in an amended § 2255 motion to vacate which do not
relate back to claims raised in an initial timely filed motion, the new claims are time-barred. See
also Mayle v. Felix, 545 U.S. 644 (2005).

7

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 8 of 27

U.S.C. § 2255. The burden of proof is on Movant, not the government, to establish
that vacatur of the conviction or sentence is required. Beeman v. United States, 871
F.3d 1215, 1221-1222 (11th Cir. 2017).
To overcome a procedural default arising from a claim that could have been,
but was not raised on direct appeal, Movant must demonstrate: (1) cause for failing
to raise the claim and resulting prejudice; or, (2) that a miscarriage ofjustice excuses
the procedural default because Movant is actually innocent. See McKay v. United
States, 657 F.3d 1990, 1996 (11th Cir. 2011). The actual innocence exception is
exceedingly narrow in scope as it concerns a petitioner’s “actual” innocence, rather
than his “legal” innocence. Johnson v. Alabama, 256 F.3d 1156, 1171 (11th Cir.
2001).
B. Ineffective Assistance of Counsel Principles
Where, as here, a defendant challenges counsel’s effectiveness, he must
demonstrate that: (1) counsel’s performance was deficient, and (2) a reasonable
probability that the deficient performance prejudiced the defense. See Strickland v.
Washington, 466 U.S. 668, 687, 694 (1984). However, if Movant cannot meet one
of Strickland'' s prongs, the court does not need to address the other prong. Strickland,
466 U.S. at 697; Brown v. United States, 720 F.3d 1316 (11th Cir. 2013).
To show deficient performance, a movant must demonstrate that “no
competent counsel would have taken the action that his counsel did take.” Gordon
8 .

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 9 of 27

v. United States, 518 F.3d 1291, 1301 (11th Cir. 2008)(citations omitted). With
regard to the prejudice requirement, Movant must establish that, but for counsel’s
deficient performance, the outcome of the proceeding would have been different.
Strickland, 466 U.S. at 694. Counsel, however, has no duty to raise non-meritorious
claims. Hittson v. GDCP Warden, 759 F.3d 1210,1262 (11th Cir. 2014). Courts may
not vacate a conviction or sentence solely because the outcome would have been
different, but for counsel’s error, as it may grant the defendant a windfall to which
the law does not entitle him. Lockhart v. Fretwell, 506 U.S. 364, 369-70 (1993);
Allen v. Secy, Fla. Dep’t ofCorr., 611 F.3d 740, 754 (11th Cir. 2010). Bare and
conclusory allegations of ineffective assistance are also insufficient to satisfy the
Strickland test. See Blackledge v. Allison, 431 U.S. 63, 74 (1977); Boyd v. Comm.,
Ala. Dep’t of Corr., 697 F.3d 1320, 1333-34 (11th Cir. 2012).
Finally, the Eleventh Circuit has recognized that given the principles and
presumptions set forth above, “the cases in which habeas petitioners can properly
prevail... are few and far between.” Chandler v. United States, 218 F.3d 1305, 1313
(11th Cir. 2000). The Strickland test does not require a showing of what the best or
good lawyers would have done, but rather whether some reasonable lawyer could
have acted in the circumstances as defense counsel acted. Dingle v. Sec y for Dep ’t
of Corr., 480 F.3d 1092, 1099 (11th Cir. 2007). In retrospect, where counsel’s
decision appears to have been unwise, it will have been ineffective only if it was “so
9

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 10 of 27

patently unreasonable that no competent attorney would have chosen it.” Dingle v.
Sec ’y for Dep 7 of Corr., 480 F.3d at 1099 (citations omitted).
A meritorious claim of ineffective assistance of counsel can, however,
constitute cause for a procedurally defaulted claim. See United States v. Nyhuis, 211
F.3d 1340,1344 (11th Cir. 2000). Ineffective assistance of counsel claims, however,
are generally not cognizable on direct appeal and are properly raised by way of a
§ 2255 motion regardless of whether they could have been brought on direct appeal.
Massaro v. United States, 538 U.S. 500, 503 (2003); see also United States v.
Patterson, 595 F.3d, 1324, 1328 (11th Cir. 2010).
V. Facts Adduced at Trial
Because Movant raises claims relating to the testimony of government
witnesses and evidence introduced at trial, the facts, as succinctly narrated by the
Eleventh Circuit in United States v. Cabrera, 635 F. App’x at 803-04, follows:
The federal government discovered that Cabrera had masterminded an
income tax fraud scheme that worked as follows. Cabrera and his
associates would tell taxpayers they were entitled to tax refunds and
offer to help the taxpayers get the refunds in exchange for a cut of the
refund plus a fixed fee. Taxpayers who accepted the offer of services
would give their names, W-2s, and other basic identifying information
to Cabrera or his associates, who would electronically file the
taxpayers’ returns. The returns fraudulently claimed unfounded refunds
based on Form 2439, an obscure IRS form that allows taxpayers a
refund for taxes already paid on previously taxed ‘undistributed long
term capital gains.’ The capital gains identified in the taxpayers’ Form
2439s were falsely attributed to shell companies set up by Cabrera and
his cohorts, who electronically filed substantially identical Form 2439s
for dozens of people, including for Cabrera himself. In many cases, they
10

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 11 of 27

used unsuspecting third parties’ unsecured wireless networks to file the
returns, so that it looked like the returns came from people unaffiliated
with the scam.
As a result of the scheme, the IRS erroneously paid millions of dollars
in undue refunds. When the refunds arrived, Cabrera or an associate
would coordinate with the taxpayers to collect Cabrera’s share. Cabrera
arranged with Elias Obando to create new shell companies with bank
accounts into which Cabrera’s share of the refunds were deposited.
Thus laundered, the funds were then withdrawn and turned over to
Cabrera.
. . . the government introduced spreadsheets generated by the IRS's
electronic fraud detection system. The spreadsheets catalogued certain
information about electronically-filed returns, including the name on
the return, the internet protocol (IP) address from which the return was
filed, and the date the return was filed. . ..
The government presented dozens of witnesses and scores of exhibits
tying Cabrera to the fraudulent returns and to attempts to launder the
proceeds. IRS agents testified about the striking similarities between all
of the other Form 2439s involved in the case and Cabrera’s own
fraudulent return. An IRS agent told the jury that Cabrera had amended
his fraudulent return only after the IRS agent threatened him with
prosecution, and that Cabrera nevertheless persisted in lying about the
amended return. Some taxpayers told the jury about meeting with
Cabrera and agreeing to let him file their taxes in exchange for promises
to pay a percentage of the refunds they received to companies
controlled by Cabrera. The jury heard from Cabrera’s associates who
explained that he paid them to recruit taxpayers and that he either filed
the fraudulent returns himself or instructed others how to file them.
Obando told the jury that Cabrera had tasked him with setting up shell
companies for use in laundering the proceeds from the scam. The
government introduced bank records tracking the proceeds from the
fraudulently obtained funds—from taxpayers’ bank accounts into the
accounts of shell companies Cabrera ran, and then into Cabrera’s bank
accoimt. An IRS computer expert even showed the jury that Cabrera’s
electronic fingerprints were all over the documents used in the scam.
And on and on. The government’s case was thorough and compelling.
11

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 12 of 27

Near the end of its case-in-chief, the government called IRS agent
Karyn Calabrese to testify about the nature and scope of Cabrera's
scam. After Calabrese noted that some , of the fraudulent returns had
been submitted from Marcelle Boardman’s unsecured residential IP
address, the government asked if she had been able to link Boardman’s
IP address to any other returns, Calabrese responded: ‘I think there were
an additional 27 tax returns that we didn't present here,’ at which point
Cabrera’s counsel objected and asked for a sidebar. At the sidebar,
Cabrera’s counsel argued that the reference to the additional 27 returns
involved ‘uncharged crimes’ and information that had not been
disclosed before trial. The district court overruled the objection and
denied Cabrera’s counsel’s motion for a mistrial. The court then asked
Cabrera's counsel if he wanted a curative instruction, to which
Cabrera’s counsel replied ‘Okay[,j [tjhat is satisfactory.’ The court
promptly instructed the jury that Cabrera was ‘only on trial for those
crimes charged in the indictment and nothing more,’ and the
government continued examining Calabrese.
Later in Calabrese’s testimony, the government asked if Carlos Mara’s
tax retum-which was not among the returns for which the government
charged Cabrera—was among those reflected in the spreadsheets.
Cabrera’s counsel objected and moved to strike, again arguing that the
government was seeking to introduce evidence of uncharged crimes
about which there had been no discovery. The court overruled
Cabrera’s objection and allowed the testimony because Calabrese was
addressing returns that ‘were all filed during the period of time that the
conspiracy had been alleged in the indictment.’ Calabrese proceeded to
answer the government’s question, explaining that Mara’s return had
been filed from an IP address associated with Cabrera and one of his
shell companies, and that Mara’s return was filed just a few weeks
before Mara sent a sizable payment to that shell company. .. .
See United States v. Cabrera, 635 F. App’x at 803-05; [CR ECF No. 148].

12

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 13 of 27

VI. Discussion
A. Ineffective Assistance of Counsel Claims
1. Failure to Object to Intended Loss
In claim 1, Movant asserts that he was denied effective assistance of counsel,
where his lawyer failed to object to the amount of intended loss at sentencing, and
then failed to raise the issue on appeal. [CV ECF No. 9, p. 3; CV ECF No. 9-1, p. 2],
Movant maintains that he was held accountable for an intended loss amount of
$10,242,667, as set forth in the PSI, when the tax loss proven at trial was only
$1,526,622. [Id.]. In support of this claim, Movant attaches email communications
between the probation officer, the government, and prosecution witness, IRS Agent
Karin Calabrese. [Id., Ex. 1], He claims the incorrect intended loss amount resulted
in a twenty-level increase, rather than a sixteen-level increase to his base offense
level, thereby triggering a higher base offense level. [CV ECF No. 9-1, p. 2]. Movant
suggests that the court considered one-hundred returns that were never presented at
trial, and faults counsel for failing to raise the issue at trial and on appeal. (Id.:4).
The government has filed a response, arguing in pertinent part that, had
counsel objected to the loss amount, the government would have presented
testimony and evidence prepared by Special Agent Calabrese establishing the
intended loss figure as set forth in the PSI. [ECF No. 11, p. 9; ECF No. 11-1, Ex. A].
In Agent Calabrese’s Affidavit she explains she was the case agent, and during the
13

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 14 of 27

course of her investigation, she identified and compiled a list of at least 147
taxpayers whose tax filings could be linked to Movant’s fraud scheme. [ECF No. 11 2, Iffl 2-3], Of those, one of the tax returns belonged to Movant, and another to his
coconspirator, Carlos Perez.

3a]. These returns were linked to Movant through

witness interviews, bank records, and the fact that the same IP addresses were used
'

to file multiple returns. [M,lfll 3-5]. She calculated the intended loss of $10,242,667
by adjusting the tax return for all false items included by Movant not only from the
Form 2439, but other false items such as fake Schedule C business and false
Schedule A deductions. [Id., f 6], For the remaining taxpayers not interviewed by
the agent, the estimated intended loss was the requested tax refund amount.
[Id.,% 6b]. Calabrese explains that had she used the false items on the tax returns
when calculating the loss amount, the loss figure would have been higher than
$10,242,667. [Id.].
As will be recalled, the PSI imposed a twenty-level enhancement to Movant’s
base offense level, pursuant to U.S.S.G. § 2Bl.l(b)(l)(K), because Movant had
responsible for a loss of $10,242,667, which was more than $7,000,000 but less than
$20,000,000. (PSI H 29).
The U.S. Sentencing Guidelines apply a base offense level, and then increases
the level based on the value of the loss caused. See U.S.S.G. § 2B1.1(a), (b)(1). The
district court need only make a reasonable estimate of the loss suffered, and “is in a
14

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 15 of 27

unique position to assess the evidence and estimate the loss based upon that
evidence.” Id. § 2B1.1 cmt. n.3(C). To properly calculate the loss requires
consideration of all the acts and omissions that were part of the same scheme. See
United States v. Rodriguez, 751 F.3d 1244, 1256 (11th Cir. 2014). “A participant in
a conspiracy may thus be held responsible for the losses resulting from the
reasonably foreseeable acts of co-conspirators in furtherance of the conspiracy.” Id.
(internal quotation marks omitted).
Relevant conduct includes all acts and omissions committed by the defendant,
as well as all reasonably foreseeable acts and omissions of others in furtherance of
jointly undertaken criminal activity. U.S.S.G. § lB1.3(a)(l)(A)-(B). To determine a
defendant’s responsibility for the conduct of others, the court must ascertain the
scope of the criminal activity that the defendant agreed to jointly undertake. Id.
§ 1B1.3 cmt. n.2. Relevant conduct attributable to the defendant includes the conduct
of others that was both in furtherance of, and reasonably foreseeable in connection
with, the criminal activity jointly undertaken. Id.
The scope of a defendant’s jointly undertaken criminal activity may not be the
same as the scope of the entire conspiracy. Id. The defendant’s mere knowledge of
the existence of a larger criminal undertaking and agreement to perform a particular
act is insufficient to show that he agreed to participate in the entire criminal
undertaking. United States v. Hunter, 323 F.3d 1314, 1320 (11th Cir. 2003).
15

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 16 of 27

However, the district court may consider any implicit agreement fairly inferred from
the conduct of the defendant and others. See U.S.S.G. § 1B1.3, cmt. n.2. Sharing and
mutuality are factors indicative of an agreement to participate in a larger criminal
scheme. See Hunter, 323 F.3d at 1322. Other relevant factors include: (1) the extent
of the defendant’s knowledge of and participation in the undertaking, and
(2) whether the defendant took steps to further the scheme. See United States v.
McCrimmon, 362 F.3d 725, 732-33 (11th Cir. 2004).
The Eleventh Circuit has made clear that the conduct of participants in a fraud
scheme was part of a defendant’s jointly undertaken criminal activity where the
participants, although acting on their own behalf, were aware of each other's
activities and aided and abetted one another by sharing lead sheets of potential
victims and sharing telephones. United States v. Hall, 996 F.2d 284, 285-86 (11th
Cir. 1993).
Movant’s reliance upon an “email chain” as a basis to conclude the amount of
loss attributable to him is misleading because, as argued correctly by the
government, those emails related to his coconspirator, Carlos Perez, as noted in the
subject line of the emails. [CV ECF No. 11, p. 10]. In any event, given Agent
Calabrese’s declaration and supporting exhibit, Movant has not rebutted the finding
that the loss amount set forth in the PSI was error. Therefore, he is not entitled to
relief on this claim, challenging counsel’s failure to pursue this issue.
16

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 17 of 27

Movant cannot establish deficient performance or prejudice under Strickland
arising from counsel’s failure to pursue this non-meritorious claim either at
sentencing or on appeal given the nature and scope of Movant’s involvement in the
conspiracy. It was thus proper for the court to attribute the actions of all
coconspirators to Movant as relevant conduct in calculating the intended loss
amount. Movant had extensive knowledge of the scheme and an important role in
furthering it, as he recruited individuals for the purpose of having their individual
tax returns prepared with the promise that he could obtain substantial tax refunds for
the taxpayers. See United States v. McCrimmon, 362 F.3d at 732-33.
Movant had access to the bank account for Regius Consulting, which was
opened by Perez. (PSI ^ 3). It was further established that Movant recruited and
conspired with Elias Obando and Abelino Morraz to open several businesses (shell
corporations) for the purpose of laundering the proceeds of his unlawful activity.
(PSI Iff 3, 8). The PSI notes that Movant was personally responsible for $587,251.42
in laundered funds, and caused multiple false claims for income tax refunds to be
filed with the IRS for an additional tax loss of $10,242,667, resulting in an actual
loss of $1,526,622. (PSI Tf 11). It was determined that the additional $10,242,667
loss amount was derived from an additional one-hundred income tax returns that
were filed during the same time period and in furtherance of the conspiracy, in
accordance with relevant conduct. (PSI 10); See U.S.S.G. § 1B1.3, cmt. n.2. Given
17

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 18 of 27

Movant’s role as a recruiter and based on his knowledge of the scheme, these tax
returns were reasonably foreseeable to him. See U.S.S.G. § 1B1.3, cmt. n.2; United
States v. Johnston, 620 F. App’x 839, 854-56 (11th Cir. 2015). Under these
circumstances, Movant cannot establish deficient performance or prejudice arising
from counsel’s failure to pursue this non-meritorious claim. Relief is not warranted
on claim 1.
2. Failure to Subpoena Witnesses and Documents and to Impeach Witnesses
In claim 2, Movant asserts that he was denied effective assistance of counsel,
where his lawyer failed to subpoena witnesses and documents, and failed to use
prior, inconsistent grand jury testimony and documents in evidence to impeach the
testimony of key government witnesses who testified that Movant prepared the tax
returns, which served as the basis for Count 2 of the Superseding Indictment. [CV
ECF No. 9, p. 5; CV ECF No. 9-1, p. 3], Movant states that a comparison of the
initial Indictment and the Superseding Indictment reveals that the filing date of the
Delgado tax return was changed from January 24, 2009 to May 7, 2009,
notwithstanding Agent Calabrese’s testimony before the grand jury in 2013 which
indicated that the returns listed in Count 2 of the Indictment, and the date amounts
referenced there were correct. [ECF No. 9, p. 5]. He suggests the government
witnesses offered equivocal testimony regarding the filing of the amended return in
order to confuse the jury. [Id., pp. 6-7]. Movant claims it was impossible for him to
18

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 19 of 27

have filed the January 24,2009 return because he was not released from immigration
custody until January 24, 2009, the same date the IRS received the Delgado return.
[Id. pp. 7-8], Movant maintains it was counsel’s duty to establish through crossexamination of government witnesses that the date the IRS received Delgado’s tax
return was January 24, 2009 and not May 7, 2009. [CV ECF No. 3, p. 5], He further
claims counsel should have subpoenaed immigration records to confirm Movant’s
January 24,2009 release from immigration custody. [Id.].
Even if counsel had introduced evidence that Movant was in custody at the
time Delgado’s return was filed, this is of no consequence and would not have
affected the outcome of the trial, especially in light of the Superseding Indictment
and evidence adduced at trial which established that J.D.’s fraudulent tax return was
filed on or about May 7, 2009. Movant has not demonstrated that the government’s
witness, Victoria O’Brien, or any of its other witnesses provided incorrect testimony
regarding the filing of the fraudulent return. O’Brien did not dispute that an original
return for J.D. was filed in January 2009, but the amended return, filed on May 7,
2009, would have had to have been mailed or filed as a walk-in. [CR ECF No. 138,
pp. 149-54],
If counsel had attempted to impeach O’Brien regarding the filing of the return,
the government maintains she did not testify before either of the grand juries. [CV
ECF No. 11, p. 11]. Thus, no impeaching testimony would have been established.
19

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 20 of 27

Regardless, the error was of no import as the Superseding Indictment correctly
charged that the return was filed on May 7th and not January 2009. The jury was
instructed on weighing the credibility of the evidence and witnesses. On this record,
Movant has not shown that the result of the trial would have been different, resulting
in an acquittal as to Count 2, much less the remaining offenses. Therefore, he is not
entitled to relief on this claim.
B. Prosecutorial Misconduct Claim
In claim 3, Movant asserts that the government violated his due process rights
by failing to comply with Giglio. [ECF No. 9, p. 9; ECF No. 9-1, p. 6]. Movant
claims there was overwhelming evidence that the “amended return,” introduced at
trial as Exhibit 21, reveals that it was received by the Internal Revenue Service
(“IRS”) on January 24, 2009. [ECF No. 9, pp. 9-10], Movant suggests that the
Superseding Indictment, and government witness testimony at trial provided
fraudulent and perjurious testimony that the amended returns were received by the
IRS on May 7, 2009 and not January 24, 2009. [Zcf.: 10]. Movant maintains the
government knew Movant was incarcerated between 2002 and January 24, 2009,
and therefore could not have filed Delgado’s amended return. [Id.]. Ele maintains the
government “bent” the facts to support their theory of the case. [Id.].
The government has filed a response,' arguing that Movant is not entitled to
relief on this claim. The government concedes that the initial Indictment alleged that
20

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 21 of 27

J.D.’s return was filed on or about January 24, 2009, but in preparing for trial, it
realized that the fraudulent Form 2439 was not attached to the original return, but
instead was attached to an amended return filed on or about May 7, 2009. [CV ECF
No. 11, p. 11], As a result, a Superseding Indictment was returned, which corrected
the date of filing of J.D.’s false return to on or about May 7,2009. [Id.]. Further, the
government correctly argues that the jury was not misled by the testimony of its
witness, Victoria O’Brien, who testified that the data she reviewed demonstrated that
an amended return for J.D. was filed on or about May 7,2009. [Id.; see also CR ECF
No. 138, T.149-54].3 The government also argues that the information contained in
the initial Indictment regarding the date of filing J.D.’s return could not have been
used to impeach O'Brien because she did not testify before the grand juries who
returned either the initial or superseding indictments. [Id.].
A new trial based on prosecutorial misconduct “‘is an extreme sanction which
should be infrequently utilized.’” United States v. Accetturo, 858F.2d679,681 (11th
Cir. 1988)(quoting United States v. Pabian, 704 F.2d 1533, 1536 (11th Cir. 1983)).
The movant has not demonstrated here that the government witnesses, as alleged,
testified falsely, much less that the government suborned perjury.

3The letter "T" in this Report refers to the transcripts of trial and sentencing that are part of
the underlying criminal record under attack here.

21

Case l;17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 22 of 27

It is well settled that the standard for federal habeas corpus review of a claim
of prosecutorial misconduct is whether the alleged actions rendered the entire trial
fundamentally unfair. See Donnelly v. DeChristoforo, 416 U.S. 637, 642-45 (1974);
Hall v. Wainwright, 733 F.2d 766, 733 (11th Cir. 1984). In assessing whether the
fundamental fairness of the trial has been compromised, the totality of the
circumstances are to be considered in the context of the entire trial, Hance v. Zant,
696 F.2d 940 (11th Cir. 1983), and, “[s]uch a determination depends on whether
there is a reason-able probability that, in the absence of the improper remarks, the
outcome of the trial would have been different.” Williams v. Weldon, 826 F.2d 1018,
1023 (11th Cir. 1988). No such showing has been made here.
In any event, in order to prevail on a Giglio claim, Movant must establish that
the prosecutor knowingly used perjured testimony, or failed to correct what he
subsequently learned was false testimony, and that the falsehood was material.
United States v. Vallejo, 297 F.3d 1154, 1163-64 (11th Cir. 2002). Under Giglio,
“the falsehood is deemed to be material ‘if there is any reasonable likelihood that the
false testimony could have affected the judgment of the jury.’” Id. (quoting United
States v. Agurs, 427 U.S. 97, 103 (1976)). The government is also required to turn
over to a criminal defendant any impeachment evidence that is likely to cast doubt
on the reliability of a witness whose testimony may be determinative of guilt or
innocence. United States v. Jordan, 316 F.3d 1215,1226 n. 16,1253 (11th Cir. 2003).
22

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 23 of 27

Careful review of the record does not support Movant s claim that the
government suborned perjury, much less that the prosecution was fabricated or based
on lies. To the contrary, the fact that Movant takes issue with the testimony of the
prosecution’s witnesses does not mean that such testimony was untruthful or a
product of misconduct on the part of the government. Moreover, the witnesses were
subject to cross-examination by defense counsel regarding their credibility and the
reliability of their testimony. Defense counsel conducted thorough and forceful
cross- examination of the prosecution witnesses. It is apparent that the jury rejected
the defense presented and, instead, believed the government’s theory and strong
evidence presented by the government.
Even if counsel had sought a mistrial based on the government suborning what
Movant claims to be purported false testimony, no showing has been made in this
collateral proceeding that the court would have granted the motion, much less that
the outcome of the guilt phase portion of the proceeding would have been different,
especially in light of the overwhelming evidence implicating Movant in the offenses.
Thus, Movant is entitled to no relief on the claim. Under the totality of the
circumstances present here, Movant has failed to establish prosecutorial misconduct.
See Donnelly v. DeChristoforo, 416 U.S. 637, 642-45 (1974); Hall v. Wainwright,
733 F.2d 766,733 (11th Cir. 1984). Movant has not demonstrated a Giglio violation,

23

Case l:17-cv-23627-JIC Document 14 Entered on l-LSD Docket 12/12/2019 Page 24 of 27

and further cannot establish that counsel was ineffective for failing to pursue this
issue either at trial or on appeal. Relief is not warranted on this claim.
VII. Cautionary Instruction Re Clisby4 Rule
The Court is mindful of the Clisby rule that requires district courts to address
and resolve all claims raised in habeas corpus proceedings, regardless of whether
relief is granted or denied. Clisby v. Jones, 960 F.2d at 936-36; Rhode v. United
States, 583 F.3d 1289, 1291 (11th Cir. 2009)(holding that Clisby applies to § 2255
proceedings). Flowever, nothing in Clisby requires, much less suggests,
consideration of claims or arguments raised for the first time in objections. If Movant
attempts to raise arguments or further factual support for his claims in objections,
the court should exercise its broad discretion and refuse to consider the arguments
not raised before the magistrate judge in the first instance. See Williams v. McNeil,
557 F.3d 1287, 1291 (11th Cir. 2009){citing Stephens v. Tolbert, 471 F.3d 1173,
1174 (11th Cir. 2006)(fmding no abuse of discretion by the district court in declining
to consider timeliness argument that was not presented to the magistrate judge)).
This is so because “[Pjarties must take before the magistrate, ‘not only their best
shot but all of the shots.’” See Borden v. Secy of Health & Human Services, 836
F.2d 4, 6 (1st Cir. 1987) {quoting Singh v. Superintending School Committee of City
of Portland, 593 F. Supp. 1315, 1318 (D. Me. Sept. 27, 1984). Further, where a

4Clisby v. Jones, 960 F.2d 925, 936 (11th Cir. 1992).
24

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 25 of 27

precise argument, subsumed within any of the foregoing grounds for relief, was not
specifically addressed herein, all arguments and claims were considered and found
to be devoid of merit, even if not discussed in detail here.
VIII. Evidentiary Hearing
In a habeas corpus proceeding, the burden is on Movant to establish the need
for a federal evidentiary hearing. See Chavez v. Sec ’y, Fla. Dep t ofCorr., 647 F.3d
1057,1060 (11th Cir. 2011). To determine whether an evidentiary hearing is needed,
the question is whether the alleged facts, when taken as true, are not refuted by the
record and may entitle a petitioner to relief. Schriro v. Landrigan, 550 U.S. 465,474
(2007); Jones v. Sec’y, Fla. Dep’tofCorr., 834F.3d 1299,1318-19 (11th Cir. 2016).
The pertinent facts of this case are fully developed in the record before the Court.
Because this Court can “adequately assess [Movant’s] claim[s] without further
factual development,” Turner v. Crosby, 339 F.3d 1247, 1275 (11th Cir. 2003), an
evidentiary hearing is not warranted here. See Schriro v. Landrigan, 550 U.S. at 47375; Holmes v. United States, 876 F.2d 1545, 1553 (11th Cir. 1989).
IX. Certificate of Appealability
A prisoner seeking to appeal a district court’s final order denying his § 2255
motion has no absolute entitlement to appeal, and to do so, must obtain a certificate
of appealability (“COA”). See 28 U.S.C. § 2253(c)(1); Harbison v. Bell, 556 U.S.
180, 183 (2009) (citing Slack v. McDaniel, 529 U.S. 473,484-85 (2000); Wilkinson
25

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 26 of 27

v. Dotson, 544 U.S. 74, 78-83 (2005)). This Court should issue a certificate of
appealability only if Movant makes “a substantial showing of the denial of a
constitutional right” See 28 U.S.C. § 2253(c)(2). Where a district court has rejected
a movant’s constitutional claims on the merits, the petitioner must demonstrate that
reasonable jurists would find the district court’s assessment of the constitutional
claims debatable or wrong. See Slack v. McDaniel, 529 U.S. at 484. However, when
the district court has rejected a claim on procedural grounds, Movant must show that
“jurists of reason would find it debatable whether the petition states a valid claim of
the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.” Id. Upon
consideration of the record as a whole, this Court should deny a certificate of
appealability. Notwithstanding, if Movant does not agree, he may bring this
argument to the attention of the district judge in objections.
X. Recommendations
Based on the foregoing, it is recommended that:
1.

The motion to vacate be DENIED on the merits;

2.

Final judgment be entered in favor of Respondent;

3.

That no certificate of appealability issue; and,

4.

The case CLOSED.

26

Case l:17-cv-23627-JIC Document 14 Entered on FLSD Docket 12/12/2019 Page 27 of 27

Any party who objects to this recommendation or anything in it must, within
fourteen (14) days of the date of service of this document, file specific written
objections with the Clerk of this court. Failure to do so will bar a de novo
determination by the district judge of anything in the recommendation and will bar
an attack, on appeal, of the factual findings of the Magistrate Judge. See 28
U.S.C.§ 636(b)(1)(C); Thomas v. Am, 474 U.S. 140, 149 (1985); Williams v.
McNeil, 557 F.3d at 1291 (finding district court, has discretion to decline
consideration of arguments not presented to the magistrate judge in the first
instance).
Signed this 12th day of December, 2019.
/A
jCLlj7

---------------------- :-------

slITED STAfES MAGISTRATE JUDGE
cc:

Rigoberto Cabrera, Pro Se
Reg. No. 33513-018
F.C.I. - Miami
Inmate Mail/Parcels
Post Office Box 779800
Miami, FL 33177
Dan Bernstein, AUSA
United States Attorney’s Office
99 NE 4 Street
Miami, FL 33132
Email: daniel.bemstein@usdoi.gov

27

A-4

*

Case: l:17-cv-23627-JIC

Document #: 6 Entered on FLSD Docket: 10/05/2017

Page 1 of 8

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 17-23627-Civ-COHN
(13-20339-Cr-COHN)
MAGISTRATE JUDGE P.A. WHITE
RIGOBERTO CABRERA,
Movant,
v.

UNITED STATES OF AMERICA,
Respondent.

ORDER REQUIRING MOVANT TO FILE FINAL,
SUCCINCT, AMENDED §2255 MOTION
The pro se movant has filed this §2255 proceeding, in which he
attacks the constitutionality of his convictions and sentences for
conspiracy to defraud the United States and related offenses,
entered following a jury verdict in case no. 13-20339-Cr-Cohn.
This case has now been referred to the undersigned for
consideration and report pursuant to 28 U.S.C. §636(b)(1)(B) and
Rule 8 (b) of the Rules Governing Section 2255 Proceedings in the
United States District Courts.
The movant has filed a 13-page motion (Cv-DE#1), and an
additional 20 page supporting memorandum (Cv-DE#3) with attached
exhibits.
Together both filings exceed the length and form
requirement under the federal and local rules governing the filing
of §2255 motion.
Although the movant is appearing pro se, he is required to
comply with the Local Rules of the Southern District of Florida,1

1Specif ically, Local Rule 1.1 provides that the Local Rules for the
Southern District of Florida shall apply in all proceedings in civil and criminal
actions except where otherwise indicated. Moreover, the local rules further
mandate that petitions and motions, filed pursuant to U.S.C. §2254, §2241, and
(continued...)

Case: 1:17-cv-23627-JIC

Document#: (3 Entered on hlsd Docket: iu/ub/2ui/’

Mage 2 ot a

the Federal Rules of Civil Procedure, and the Rules Governing
Section 2255 Proceedings (2005) . In that regard, the Rules
Governing Section 2255 Proceedings, which have been adopted in this
district, require that the motion be in substantially the form
appended to the rules. See Rule 2(c), Rules Governing Section 2255
Proceedings in United States District Courts.2
The court has undertaken the review required by Rule 4(b),3
Rules Governing Section 2255 proceedings, and finds, for the
reasons set forth herein, that the motion with supporting
memorandum should not be served on Respondent until Movant has had
an opportunity to cure deficiencies by filing one concise §2255
motion, raising therein all claims he wishes this court to
consider. See 28 U.S.C. §2244 (b) and §2255 S18. The movant need not
file supporting exhibits with his motion. However he is instructed
to complete the §2255 form provided properly, setting forth the
claims therein as required, and in compliance with the page and
line spacing limitations as required by the rules governing such
filings. He is to refrain from incorporating by reference or
otherwise stating "see attached," and instead is to set forth in
the space provided each ground for relief he intends for this court

1 (...continued)
§2255, as well as civil complaints filed under 42 U.S. §1983 and pursuant to
Bivens v. Six Unknown Federal Narcotics Agents, 403 U.S. 388 (1971), and must
substantially follow the forms, if any, prescribed by the Court and obtained from
the Clerk of the Court upon request. See Rule 88.2(a) (1-5).
2Likewise, under Rule 11 of the Rules Governing Section 2254 Petitions,
district courts may apply the Federal Rules of Civil Procedure in habeas cases
' "to the extent that [the civil rules] are not inconsistent with any statutory
provisions or [the habeas] rules." Mayle v. Felix, 545 U.S. 644, ___ , 125 S.Ct.
2562, 2569, 162 L.Ed.2d 582 (2005); see also Fed.R.Civ.P. 81(a)(2) (the civil
rules "are applicable to proceedings for . . . habeas corpus"). Applying the
pleading requirements in Fed.R.Civ.P. 8 (a), the Supreme Court has determined that
a civil complaint need only provide the defendant with "fair notice of what the
plaintiff's claim is and the grounds upon which it rests." Mayle, 545 U.S. at
___ , 125 S.Ct. at 2570 (quoting Conley v. Gibson, 355 U.S. 41, 47, 78 S.Ct. 99,
103, 2 L.Ed.2d 80 (1957)).
3Rule 4(b) provides, in pertinent part, that M[t]he judge who receives the
motion must promptly examine it. If it plainly appears from the motion, any
attached exhibits, and the record of prior proceedings that the moving party is
not entitled to relief, the judge must dismiss the motion and direct the clerk
to notify the moving party."

2

Case: l:17-cv-23627-JIC

Document#: 6 Entered on FLSD Docket: 10/05/2017

Page 3 of 8

to review on his behalf. He is also cautioned against raising more
than one claim in each section. In other words, he is to use each
ground for relief to state only one claim. He may attach additional
pages, but is reminded that the total page limitations must be in
compliance with the rules governing such filings.
When the movant fails to set forth a legally sufficient claim
for relief because he omitted the factual support for his claim on
the form petition, or where the petition exceeds local rules and is
a rambling narrative, its usefulness is substantially diminished.
The movant is cautioned against listing more than one claim in each
ground for relief. The claims should be numbered separately, and
should each contain a succinct statement of the facts supporting
that particular claim. The movant is advised that this Court will
NOT permit piecemeal filings. Therefore, the Court will only
consider claims raised by movant in one, concise, succinct amended
§2255
motion.
Furthermore,
the
Court
will
not
act
as
researcher/investigator on a scavenger hunt for claims on movant's
behalf. See Fils v. City of Aventura, 647 F.3d 1272, 1284 (11th Cir.
2011)(A court may not act as a movant's lawyer and construct the
party's theory of liability from facts never alleged, alluded to,
or mentioned during the litigation.). In this regard, the Eleventh
Circuit has instructed:
[A] 11 of these principles of law would mean nothing if
district courts were required to mine the record,
prospecting for facts that the habeas petitioner
overlooked and could have, but did not, bring to the
surface of his petition. Making district courts dig
through volumes of documents and transcripts would shift
the burden of sifting from petitioners to the courts.
With a typically heavy caseload and always limited
resources, a district court cannot be expected to do a
petitioner's work for. him. Cf. Adler v. Duval County
School Board, 112 F.3d 1474, 1481 n.12 (11th Cir.
1997)(noting in a civil case that, absent plain error,
"it is not our place as an appellate court to second
guess
the
litigants
before
us
and
grant
them
relief...based on facts they did not relate."); Johnson
v. City of Fort Lauderdale, 126 F.3d 1372, 1373 (11th
Cir. 1997) ("[W]e are not obligated to cull the record
3

<^ase;

uocumeniff: o

truereu on i-lsu uockoi: xu/uo/^oi/

raye 4ui o

ourselves in search of facts not included in the
statements of fact."). The Seventh Circuit memorably said
that appellate judges "are not like pigs, hunting for
truffles buried in briefs." United States v. Dunkel, 927
F.2d 955, 956 (7th Cir. 1991). Likewise, district court
judges are not required to ferret out delectable facts
buried in a massive record, like the one in this case,
which was more than 25,000 pages of documents and
transcripts.

Chavez v. Sec'v Fla. Pep't of Corr's, 647 F.3d 1057, 1059-60 (11th
Cir. 2011) . Those combined requirements means that a habeas movant
must construct his claims. See also cf GJR Investments,

Inc, v.

County of Escambia, 132 F.3d 1359, 1369 (11th Cir. 1998).
Moreover,
movant.

the

Movant

is

amended §2255 motion will be the operative
cautioned that

failure

to

comply with

this

court's order requiring a succinct, concise, amended §2255 motion
may result in dismissal of this action. See Brutus v. International
Revenue Service, 393 Fed.Appx. 682 (11th Cir. Aug. 23, 2010)(quoting
Equity Lifestyle Properties,

Inc, v.

Florida Mowing & Landscape

Serv., Inc., 556 F.3d 1232, 1240 (11th Cir. 2009)(Even so, dismissal
under Rule 41(b) upon disregard of an order, especially where the
litigant

has

been

forewarned,

generally

is

not

an

abuse

of

discretion.).
When,

however,

a pro se petition might state a claim upon

which relief can be granted, a district court should give a movant
an opportunity to amend his motion instead of dismissing it. See
Mederos v.
Given

United States,

movant's

pro

se

218 F.3d 1252,

status,

the

Court

1253

(11th Cir.

will

afford

2000).
him

an

opportunity to amend his motion. Movant is cautioned, however, that
mere conclusions of law, unsupported by any facts are insufficient
to support a claim for federal habeas corpus relief.
4

It is the

Case: l:17-cv-23627-JIC

Document #: 6 Entered on FLSD Docket: 10/05/2017

Page 5 of 8

relationship of the facts to the claim asserted in the motion that
is important. See Rule 2(e), Rules Governing Section 2255 Cases
advisory committee note. See also Adams v. Armontrout,
332,

334

specific,

(8th Cir.

897 F.2d

1990) (holding that Ma petitioner must state

particularlized

facts

which... consist

detail to enable the court to determine,

of

sufficient

from- the face of the

petition alone, whether the petition merits further habeas corpus
review."); Passic v. Michigan,

98 F.Supp. 1015, 1016

(E.D. Mich.

1951) .
Movant is advised that the local rules require that a motion
and its incorporated memorandum of law shall not exceed twenty (20)
pages,

absent

District

of

prior

permission

Florida,

Local

from

Rule

the

Court.

7.1(c)(2);

See

United

Southern
States

v.

Johnson, 2012 WL 4039683 (N.D. Fla. 2012)(noting that local rules
apply,

and requiring that movant submit his §2255 motion on the

court approved form); see also, Brye v. Sec'y Dep't of Corr's, 228
Fed.Appx.

843

(11th Cir.

2007) (noting in context of a motion to

proceed in forma pauperis, Fed.R.Civ.P. 41 (b) authorizes a court to
sua sponte dismiss an action for failing to comply with local
rules, but should not be applied to pro se plaintiffs who has not
been made aware of the rule prior to dismissal); see also, Moon v.
Newsome, 863 F.2d 835, 837

(11th Cir.), cert, den'd, 493 U.S. 863

(1989). It is noted, however, that title pages preceding the first
page

of

text,

signature

pages,

certificates

of

good

faith

conferences, and certificates of service shall not be counted as
pages for purposes of the local rules. See Local Rule 7.1(c) (2).
The use of a prescribed form,
Rules

Governing

District

of

§2255

Florida

Proceedings,

Local

Rules,

required by Rule 2 (c)
as
was

well

as,

adopted

the

for

of the

Southern

reasons

of

administrative convenience. This court, with its large volume of
5

oase: i;i/-cv-^c50z:/-jio

uocumeniff: o

tnierea on i-lsu uockoi; ±u/uo/^ui/

raye duio

habeas petitions, saves valuable time if it is not required to comb
through unwieldy,
movant were

lengthy motions. This saving would be lost if

allowed to

file

a petition

form and then

file

a

separate lengthy, unwieldy supporting memorandum, which would by
far exceed the page limits authorized under the rules and become
unduly burdensome to this court. Movant should thus be required to
complete the form, even if he needs to attach pages setting forth
succinctly additional grounds and supporting facts.
The movant is advised that he only has one year from the date
his conviction became final within which to file a timely motion.
The movant is further cautioned that any claims raised in his final
amended motion should comply with the relation back doctrine, as
enunciated in Davenport v. United States, 217 F.3d 1341 (11 Cir.
2000) . In other words, any claims raised in the amended, operative
motion, should relate back to the timely filed motion. Failure to
do so may result in dismissal of the claims as time-barred. It is
therefore
ORDERED AND ADJUDGED as follows:
1.

For the reasons stated previously in this Order,

the

movant shall file an amended §2255 motion, on the proper form, on
or before November 6, 2017.

2.

In his final amended §2255 motion, the movant shall set

forth each ground for relief with sufficient supporting facts. The
movant is cautioned that he should ensure he provides his amended
motion to prison authorities for mailing with sufficient time for
the document to reach this court by the due date referenced above.
The movant is also reminded that this pleading shall comply with

6

Case: l:17-cv-23627-JIC

Document #: 6 Entered on FLSD Docket: 10/05/2017

the local and federal rules,

Page 7 of 8

and shall not exceed 20-pages,

as

noted previously in this order. At this juncture, however, there
appears to be no good cause for permitting such unwieldy filings.
3.

To amend his petition, movant should completely fill out

a new §2225 form, marking it ''Amended Motion" and contain the case
number for this proceeding to ensure that it is docketed in this
case.

Movant

reference

is

any

instructed
prior

to

filed

refrain

pleadings

from
or

incorporating
arguments

as

by
any

"incorporation by reference" will not be considered by the Court.
This

amended

motion

shall

be

the

sole,

operative

pleading

considered in this case, and only the claims listed therein will be
addressed by the court. Therefore, it should in no way refer to the
original

motion

amended motion

or

any memoranda

shall

thereto.

The

completely replace all prior motions

and

supplements/amendments,
disregarded. See

and

all

or

supplements

earlier

filings

are

hereby

S.D.Loc.R. 15.1. The movant is further advised

that any claims set forth in the amended petition must be timely
filed, or it may be subject to dismissal pursuant to Davenport v.
United States, 217 F.3d 1341 (11th Cir. 2000) , as well as, any other
procedural bars and defenses that may apply.
4.

Movant is strongly encouraged to comply with the Local

Rules which provide that his petition may not exceed twenty (20)
pages absent leave of court and upon a showing of good cause. See
S. D.Loc.R. 5.1(J) (3) . Again, movant is advised that his failure to
comply with this court's order may result in dismissal of this
action.

See Fed.R.Civ.P.

41(b); Brutus v.

International Revenue

Service, 393 Fed.Appx. 682 (11th Cir. Aug. 23, 2010)(guoting Equity
Lifestyle Properties,

Inc, v. Florida Mowing & Landscape Serv.,

Inc., 556 F.3d 1232, 1240 (11th Cir. 2009)(Even so, dismissal under
Rule

41(b)

"upon

disregard of

an
7

order,

especially where

the

uase: i:i/-cv-zjoz/-jiu

litigant

has

uocumentff: o cruereu un r-ucsu uuuKtn. iu/uo/^ui/

been

forewarned,

generally

is

not

an

rciyc ouio

abuse

of

discretion.w) .
5.

The movant is further advised that submission of exhibits

at this time is unnecessary. Respondent will be required to submit,
in conjunction with its answer, those portions of the record that
it deems relevant.
6.

The movant

is

also to

refrain

from listing multiple

arguments within one claim for relief. In other words, each claim
should be

numbered

separately,

and

should

contain

a

succinct

statement of fact in support why relief is warranted as to that one
issue.
7.

The Clerk shall send movant a copy of the form for use in

Section 2255 cases. The case number should be written on the form.
DONE AND ORDERED at Miami, Florida, this 5th day of October,
2017 .
s/Patrick A. White_____
UNITED STATES DISTRICT JUDGE
cc:

Rigoberto Cabrera, Pro Se
Reg. No. 33513-018
F.C.I.
Miami
Inmate Mail/Parcels
Post Office Box 779800
Miami, FL 33177
Noticing 2255 US Attorney
Email: usafls-2255@usdoj.gov

8

A-5

)

Case l:13-cr-20339-JIC Document 149 Entered on FLSD Docket 10/04/2016 Page 2 of 2

Case: 14-10541 Date M 2p/03/20;6 .Rage: 1 of 1
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
October 3, 2016

Scott S. Harris
Clerk of the Court
(202)479-3011

Clerk
United States Court of Appeals for the Eleventh
Circuit
56 Forsyth Street, N.W.
Atlanta, GA 30303

Re: Rigoberto Cabrera
v. United States
No. 16-5085
(Your No. 14-10541)

Dear Clerk:
The Court today entered the following order in the above-entitled case:
The petition for a writ of certiorari is denied.

Sincerely,

Scott S. Harris, Clerk

A-6

/

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 2 of 17
Case: 14-10541 Date F(£teotf 0]B/O8/2O16 Page: 1 of 1

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
No. 14-10541
District Court Docket No.
l:13-cr-20339-JIC-l
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
RIGOBERTO CABRERA,
Defendant - Appellant.

Appeal from the United States District Court for the
Southern District of Florida
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: December 30, 2015
For the Court: AMY C. NERENBERG, Acting Clerk of Court
By: Jeff R. Patch

ISSUED AS MANDATE 03/08/2016

\

A-7

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 3 of 17
Case: 14-10541 Date FJitedf 10/30/2015 Page: 1 of 15
r
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 14-10541
D.C. Docket No. 1:13-cr-20339-JIC-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
RIGOBERTO CABRERA,
Defendant-Appellant.

Appeal from the United States District Court
for the Southern District of Florida
(December 30, 2015)
Before ED CARNES, Chief Judge, MARTIN, Circuit Judge, and WALTER,*
District Judge.

* Honorable Donald E. Walter, United States Senior District Judge for the Western
District of Louisiana, sitting by designation.

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 4 of 17
Case: 14-10541 Date F(£tedf 10)30/2015 Page: 2 of 15

PER CURIAM:
Rigoberto Cabrera appeals his conviction and sentence for perpetrating an
income tax fraud scheme.
I.
The federal government discovered that Cabrera had masterminded an
income tax fraud scheme that worked as follows. Cabrera and his associates would
tell taxpayers they were entitled to tax refunds and offer to help the taxpayers get
the refunds in exchange for a cut of the refund plus a fixed fee. Taxpayers who
accepted the offer of services would give their names, W-2s, and other basic
identifying information to Cabrera or his associates, who would electronically file
the taxpayers’ returns. The returns fraudulently claimed unfounded refunds based
on Form 2439, an obscure IRS form that allows taxpayers a refund for taxes
already paid on previously taxed “undistributed long term capital gains.” The
capital gains identified in the taxpayers’ Form 2439s were falsely attributed to
shell companies set up by Cabrera and his cohorts, who electronically filed
substantially identical Form 2439s for dozens of people, including for Cabrera
himself. In many cases, they used unsuspecting third parties’ unsecured wireless
networks to file the returns, so that it looked like the returns came from people
unaffiliated with the scam.
2

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 5 of 17
Case: 14-10541 Date F(£Bedf 16/30/2015 Page: 3 of 15
As a result of the scheme, the IRS erroneously paid millions of dollars in
undue refunds. When the refunds arrived, Cabrera or an associate would
coordinate with the taxpayers to collect Cabrera’s share. Cabrera arranged with
Elias Obando to create new shell companies with bank accounts into which
Cabrera’s share of the refunds were deposited. Thus laundered, the funds were
then withdrawn and turned over to Cabrera.
A federal grand jury indicted Cabrera for conspiring to defraud the
government by submitting false tax returns, making false, fictitious, or fraudulent
claims on the government, conspiring to commit wire fraud, committing wire
fraud, conspiring to launder money, and laundering money. Cabrera’s case was
tried before a juiy for five days. On the first day, the government introduced
spreadsheets generated by the IRS’s electronic fraud detection system. The
spreadsheets catalogued certain information about electronically-filed returns,
including the name on the return, the internet protocol (IP) address from which the
return was filed, and the date the return was filed. Although Cabrera objected on
the ground that the IRS agent testifying about the spreadsheets was not sufficiently
familiar with how they were generated, the district court overruled Cabrera’s
objection and admitted the spreadsheets into evidence.
The government presented dozens of witnesses and scores of exhibits tying
Cabrera to the fraudulent returns and to attempts to launder the proceeds. IRS
3

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 6 of 17
Case: 14-10541 Date FfifedE l@)f30/2015 Page: 4 of 15

agents testified about the striking similarities between all of the other Form 2439s
involved in the case and Cabrera’s own fraudulent return. An IRS agent told the
jury that Cabrera had amended his fraudulent return only after the IRS agent
threatened him with prosecution, and that Cabrera nevertheless persisted in lying
about amended return. Some taxpayers told the jury about meeting with Cabrera
and agreeing to let him file their taxes in exchange for promises to pay a
percentage of the refunds they received to companies controlled by Cabrera. The
jury heard from Cabrera’s associates who explained that he paid them to recruit
taxpayers and that he either filed the fraudulent returns himself or instructed others
how to file them. Obando told the jury that Cabrera had tasked him with setting up
shell companies for use in laundering the proceeds from the scam. The
government introduced bank records tracking the proceeds from the fraudulently
obtained refunds — from taxpayers’ bank accounts into the accounts of shell
companies Cabrera ran, and then into Cabrera’s bank account. An IRS computer
expert even showed the jury that Cabrera’s electronic fingerprints were all over the
documents used in the scam. And on and on. The government’s case was
thorough and compelling.
Near the end of its case-in-chief, the government called IRS agent Karyn
Calabrese to testify about the nature and scope of Cabrera’s scam. After Calabrese
noted that some of the fraudulent returns had been submitted from Marcelle
4

' ’

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 7 of 17
Case: 14-10541
Date F(ffiedf 10/30/2015
Page: 5 of 15

Boardman’s unsecured residential IP address, the government asked if she had
been able to link Boardman’s IP address to any other returns. Calabrese
responded: “I think there were an additional 27 tax returns that we didn’t present
here,” at which point Cabrera’s counsel objected and asked for a sidebar. At the
sidebar, Cabrera’s counsel argued that the reference to the additional 27 returns
involved “uncharged crimes” and information that had not been disclosed before
trial. The district court overruled the objection and denied Cabrera’s counsel’s
motion for a mistrial. The court then asked Cabrera’s counsel if he wanted a
curative instruction, to which Cabrera’s counsel replied “Okay[,j [tjhat is
satisfactory.” The court promptly instructed the jury that Cabrera was “only on
trial for those crimes charged in the indictment and nothing more,” and the
government continued examining Calabrese.
Later in Calabrese’s testimony, the government asked if Carlos Mara’s tax
return
Cabrera

which was not among the returns for which the government charged
was among those reflected in the spreadsheets. Cabrera’s counsel

objected and moved to strike, again arguing that the government was seeking to
introduce evidence of uncharged crimes about which there had been no discovery.
The court overruled Cabrera’s objection and allowed the testimony because
Calabrese was addressing returns that “were all filed during the period of time that
the conspiracy has been alleged in the indictment.” Calabrese proceeded to answer
5

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 8 of 17
Case: 14-10541 Date Fffedf 10)30/2015 Page: 6 of 15
the government’s question, explaining that Mara’s return had been filed from an IP
address associated with Cabrera and one of his shell companies, and that Mara’s
return was filed just a few weeks before Mara sent a sizable payment to that shell
company.
At the close of the government’s case-in-chief and again at the close of all
evidence, Cabrera moved for judgment of acquittal under Federal Rule of Criminal
Procedure 29. The district court denied both motions. The jury found Cabrera
guilty on all counts.
II.
The presentence investigation report calculated Cabrera’s guidelines range
by grouping together all closely related counts, as required by U.S.S.G. § 3D1.2.
Because the counts involving fraud were closely related to one another and the
counts involving money laundering were closely related to one another, the PSR
bundled those counts into two groups. The PSR then grouped all the fraud counts
with all the money laundering counts because Cabrera’s money laundering
convictions all involved funds from the fraud.
To calculate Cabrera’s base offense level, the PSR, consistent with
§ 3D1.3(a), applied the guidelines section addressing the most serious of the
grouped offenses. The most serious of the grouped offenses was money
laundering, which is covered by § 2S 1.1. Under § 2S 1.1 (a)(1), the base offense
6

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 9 of 17
Case: 14-10541 Date F(i7edf 10/30/2015 Page: 7 of 15
level for Cabrera’s money laundering conviction was the total offense level for the
fraud from which the laundered funds derived. To calculate the total offense level
for the fraud convictions, the PSR applied an enhancement under
§ 2B1 .l(b)(10)(C) to account for the fact that the fraud involved “sophisticated
means.”
The PSR ultimately calculated that the total offense level for the fraud
convictions was 29, meaning that under § 2S 1.1 (a)(1) the base offense level for the
money laundering convictions was 29. To that base offense level, the PSR added
levels to account for the specific characteristics of Cabrera’s money laundering
offenses, including two levels under § 2S 1.1 (b)(3) because the money laundering
involved sophisticated means.
Cabrera objected that the PSR failed to group the fraud and money
laundering accounts, exposing him to “impermissible double counting.” He argued
that the PSR improperly penalized him twice — once under § 2B1. l(b)(10)(C) of
the guidelines and once under § 2S1.1(b)(3) of the guidelines — for the fact that
his scheme had been sophisticated.
An addendum to the PSR responded that the guidelines required grouping
the counts together as it had. In particular, the addendum explained that the
enhancements for sophisticated means in the fraud and sophisticated laundering
accounted for different aspects of the scheme. The sophisticated means
7

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 10 of 17
Case: 14-10541 Date Rjfedf 16/30/2015 Page: 8 of 15
enhancement took into account the fact that Cabrera had used fictitious entities and
shell corporations to attempt to conceal the fraud itself and his role in it. The
sophisticated laundering enhancement was based on Cabrera’s use of
intermediaries and different shell corporations both to hide the origin of the funds
from the fraud and to obscure his involvement in the cover-up.
Responding to the addendum, Cabrera reasserted his objection and argued
that the rule of lenity required the court to interpret ambiguities in the guidelines’
grouping requirements and sophistication enhancements in the ways most
favorable to him. He maintained his objections to the PSR at sentencing, but the
district court overruled them, finding by a preponderance of the evidence that both
sophistication enhancements — one for fraud and the other for laundering —
should apply. The district court adopted the PSR’s guidelines calculations,
concluding that Cabrera’s guidelines range was 292-365 months. After rejecting
Cabrera’s request for a downward variance, the district court imposed a bottom of
the guidelines range sentence of 292 months, plus $1,526,622 in restitution.
Cabrera timely appealed his conviction and sentence. He challenges the
sufficiency of the evidence against him, the admission of Calabrese’s statements
about so-called “uncharged false returns,” and the district court’s guidelines
calculations.

8

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 11 of 17
Case: 14-10541 Date F(ffieoff 10J3O/2O15 Page: 9 of 15
III.
We reject Cabrera’s challenge to the sufficiency of the evidence against him.
We will reverse a conviction on sufficiency grounds only if the defendant shows
that “there is no reasonable construction of the evidence from which the jury could
have found the defendant^ guilty beyond a reasonable doubt.” United States v
iosech. 709 F.3d 1082. 1093 (11th Cir. 2013). Cabrera has not made that showing
for any of the charged counts. For example, he argues that there was no proof of
his i ole m any of the conspiracies. But Obando testified at length that Cabrera was
the impresario behind the fraud and the money laundering operation. Cabrera’s
clients told the jury how he had convinced them to let him prepare their taxes.
Lissette Nunez, one of Cabrera’s former employees, told the juiy that the people
involved in the fraud schemes “did the work for Rigo,” and he paid them for it.
And FBI Agent Neville Barrant testified that documents integral to the scam bore
identification markers linking them to Cabrera. The jury could reasonably credit
any or all of that testimony and rely on it to find beyond a reasonable doubt that
Cabrera was instrumental in perpetrating the fraud. His sufficiency challenges on
other bases are similarly belied by even the most cursory inspection of the record.
IV.
Cabrera’s argument that Calabrese’s testimony about “uncharged false
returns” violated his Fifth Amendment right to a fair trial is also meritless. The

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 14 of 17
Case: 14-10541 Date F^BffliofL2fi30/2015 Page: 12 of 15

evidence.” United States v. Church. 955 F.2d 688, 700 (11th Cir. 1992). District
courts, moreover, have “considerable discretion” to admit or exclude evidence
under Rule 403. Lambert v. Fulton Cty., Ga.. 253 F.3d 588, 596 (11th Cir. 2001).
Because Calabrese’s challenged testimony was relevant to the scope and nature of
the charged conspiracies, and because any prejudicial effect from the testimony
was negligible — since the testimony merely highlighted information already in
the spreadsheets

the district court did not abuse its discretion in admitting

Calabrese’s testimony over Cabrera’s Rule 403 objection.
VI.
That leaves Cabrera’s arguments that the district court miscalculated his
guidelines range. He contends first that the PSR failed to group the fraud and
money laundering counts as required by U.S.S.G. § 3D1.2. But the PSR did group
the fraud and money laundering counts together, just as Cabrera says it should
have. In explaining the steps behind its calculations, the PSR states that: “The
[fraud] counts are subsequently grouped together with the money laundering
counts under § 3D1.2(c), pursuant to § 2S 1.1, comment, (n. 6), since [Cabrera] is
convicted of laundering funds and the underlying offense from which the
laundered funds were derived.” Cabrera got exactly the type of grouping to which
he says he was entitled.

12

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 15 of 17
Case: 14-10541
Date Fp3doH26J0/2015
Page: 13 of 15

Cabrera’s other guidelines argument is that the district court engaged in
impermissible double counting when, in calculating his guidelines range, it applied
a two-level enhancement because the fraud involved sophisticated means and then
another two-level enhancement because the money laundering was also
sophisticated. According to Cabrera, the “sophisticated” conduct accounted for in
each enhancement is the same, so that applying the enhancements together
punishes him twice for the same harm. That argument misconceives the nature of
the harm addiessed by each enhancement. The sophisticated means enhancement
m § 2Bl.l(b)(10)(C) of the guidelines is directed at the fraud itself and applies
when the fraudulent scheme, in its totality, is especially complex or intricate. See
U.S.S.G. § 2B1.1, cmt. 9(B); United States v. Barrington 648 F.3d 1178, 1199
(11th Cir. 2011). This enhancement applied to Cabrera’s underlying crime, which
involved filing fraudulent returns using an obscure tax form, routing those forms
through stolen IP addresses, and stashing the proceeds in fake companies. The
sophisticated laundering enhancement in § 2S 1.1 (b)(3), by contrast, covers the
harm from laundering the proceeds of the fraud. See U.S.S.G. § 2S1.1, cmt. 5(A).
This enhancement addresses the sophistication of the money laundering Cabrera
undertook with Obando’s help, not the scheme from which the funds were derived.
Because the two enhancements recognize and punish different hanns from
fundamentally different conduct, application of both enhancements is not
13

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 16 of 17
Case: 14-10541 Date F(iMiotL£6)0/2015 Page: 14 of 15
“impermissible double counting,” which “occurs only when one part of the
Guidelines is applied to increase a defendant’s punishment on account of a kind of
harm that has already been fully accounted for by application of another part of the
Guidelines.” United States v. Dudley, 463 F.3d 1221, 1226-27 (11th Cir. 2006).
Also, we “presume that the Commission intended to apply separate guideline
sections cumulatively unless [we are] specifically directed otherwise.” United
States v. Stevenson, 68 F.3d 1292, 1294 (11th Cir. 1995). The guidelines do not
forbid applying the sophisticated means and sophisticated laundering
enhancements together. Instead, they expressly contemplate that the enhancements
may be applied cumulatively so long as the conduct that is the basis for applying
the sophisticated laundering enhancement is not the only conduct that is the basis
for applying the sophisticated means enhancement. U.S.S.G. § 2S1.1(b)(3) & cmt.
5(B). The conduct — layering and the use of certain shell corporations — that is
the basis for applying the sophisticated laundering enhancement to Cabrera is not
the same as the conduct — including the use of an obscure IRS form and a
different set of shell corporations — that is the basis for applying the sophisticated
means enhancement to him. On these facts, the district court did not err in
applying both enhancements.
Cabrera invites us to construe the guidelines in light of the rule of lenity, but
that rule has no role in this case. It applies only if the provision being construed is
14

Case l:13-cr-20339-JIC Document 148 Entered on FLSD Docket 03/08/2016 Page 17 of 17
Case: 14-10541 Date F(ilf5dofL26)0/2015 Page: 15 of 15
ambiguous after application of normal rules of statutory construction. United
States v. Camacho-Ibarauen. 410 F.3d 1307, 1315 (11th Cir. 2005). There is no
ambiguity about how the guidelines apply here.
For the first time in his reply brief, Cabrera raises two more arguments: (1)
that the district court should have applied the guideline for wire fraud, not money
laundering, to calculate his guidelines range; and (2) that the district court erred in
finding that his money laundering activities were sophisticated. Because he raised
neither argument in his opening brief, both arguments are forfeited. See United
States v. Noriega. 676 F.3d 1252, 1260 n.2 (11th Cir. 2012).
AFFIRMED.

15

A-8

I

1

!^A0 245<C^seoli/:il^i'ii^fi)i3^85i3liCiCil3<i)i9WjSE^nt 126 Entered on FLSD Docket 01/^ft5)2@14mify @i9%1vQ£ Suert ks (*»

j
i

Sheet t

I

United States District Court

!

■i

!

AMENDED JUDGMENT IN A CRIMINAL CASE

UNITED STATES OF AMERICA
V.

I
I

■<

Case Number: 0:13CR20339-COHN(s)-1
USM Number: 33513-018
Jose Herrera, Esq. AUSA, Dan Bernstein & Alejandro Soto

RIGOBERTO CABRERA

>

Date of Original Judgment: 1/28/2014
(Or Date of Last Amended Judgment)
1

Defendant’s Attorney

Reason for Amendment:
f~l Correction of Sentence on Remand (18 U.S.C. 3742(f)(1) and (2))
[~1 Reduction of Sentence for Changed Circumstances (Fed. R. Crim.
P. 35(b))
□ Correction of Sentence by Sentencing Court (Fed. R. Crim. P. 35(a))
Correction of Sentence for Clerical Mistake (Fed. R. Crim. P. 36)

1i
i!

THE DEFENDANT:
□ pleaded guilty to count(s) ______
□ pleaded nolo contendere to count(s)
which was accepted by the court.
1 thru 9 and 11 thru 30 of the Superseding Indictment
(jjjjf was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Nature of Offense
Title & Section

]
■!

1
1

5

1

S

3

x

I

i
!
i
i

i
i
1

i
5
\
i.
}:

i
j
■)

!
j
i
i|

i

I

f~l Modification of Supervision Conditions (18 U.S.C. §§ 3563(c) or 3583(e )
□ Modification of Imposed Term of Imprisonment for Extraordinary and
Compelling Reasons (18 U.S.C. § 3582(cXl))
Q Modification of Imposed Term of Imprisonment for Retroactive Amendirent(s)
to the Sentencing Guidelines (18 U.S.C. § 3582(cX2))
l~T Direct Motion to District Court Pursuant O 28 U.S.C. § 2255 or
□ 18 U.S.C. § 3559(c)(7)
[~T Modification of Restitution Order (18 U.S.C. § 3664)

5

I
1
1
1

FLORIDA

District of

SOUTHERN

■

;' If'.11
I II

18 U.S.C. 286

:•••

S

• '•

Offense Ended

Count

..T ‘

-

l.T.y.'”: '.'’ll

Conspiracy to defraud the government with respect to claims

1

3/30/2010
_v *

-

‘

JU"- «

&

of this judgment. The sentence is imposed pursuant tb
8
The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.
□ The defendant has been found not guilty on count(s) _____
□ is □ are dismissed on the motion of the United States.
□ Count(s)
It is ordered that the defendant must notify the United States Attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed bytnis judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes ipreconomic circumstances.
1/29/20*4
Ii tposition ofy
it
Dal
t

Signature of Judge
james/. cohn,
Ntrme'of Judge
1/29/2014
Date

DISTRICT JUDGE
Title of Judge

i

ao 245cCa§evlS9ti3)-Sfiit21fiSi3%mlW4n a

i

t
!

l

©QffiyirGgsnt 126

Entered on FLSD Docket 01/30/2014

Sheet 1A

Page 2 of 8

Judgment — Page ___ 2

DEFENDANT: RIGOBERTO CABRERA
CASE NUMBER: 0:13CR20339-COHN(s)-1

of

i

ADDITIONAL COUNTS OF CONVICTION

t
i

i

f

Title & Sect on

1
I

!

ni

i
I
i

18 U.S.C. 287

Making false, fictitious, and fraudulent claims
iS
;
!
Making false, fictitious, and fraudulent claims

I II

i

i
s

;

Making false, fictitious, and fraudulent claims
;
•I

18 U.S.C. 287

Making false, fictitious, and fraudulent claims

s

II
! I II
I II
I II
II

18 U.S.C. 287

1
:

I
i

18 U.S.C. 287

18 U.S.C. 287

J

i

I

18 U.S.C. 287

!

i
i
!
!I

18 U.S.C. 287

3/17/2009

3

3/18/2009

4

3/23/2009

5

: .r
Making false, fictitious, and fraudulent claims

3/28/2009

6
r :• •

j

Making false, fictitious, and fraudulent claims
i
>

7

3/14/2009

i.,
■

Making false, fictitious, and fraudulent claims

4/15/2009

8

t
i

:
Making false, fictitious, and fraudulent claims

'• It

4

Making false, fictitious, and fraudulent claims
[

9

4/15/2009

1

:

'-1

v-:,:

5/22/2009

11

]

18 U.S.C. 287

Making false, fictitious, and fraudulent claims

6/18/2009

12

18 U.S.C. 287

P II
I II

i
;
Making false, fictitious, and fraudulent claims
:
;

5/22/2009

13

18 U.S.C. 287

Making false, fictitious, and fraudulent claims

8/21/2009

14

18 U.S.C. 287

Making false, fictitious, and fraudulent claims

1/23/2010

15

18 U.S.C. 287

Making false, fictitious, and fraudulent claims

1/27/2010

16

18 U.S.C. 287

i
;
Making false, fictitious, and fraudulent claims

i
i

2

!

;
1

5/7/2009

i

18 U.S.C. 287
i
;

Count

Offense Ended

Nature of Offense
S

18 U.S.C. 287

i

4

i
;
?

I
*

i

!

I II
I II
I II

:

(NOTE: Identify Changes with Asterisks (*))

:

P7
1/29/2010

17

8

\
!

AO 245003^.^^20^^0, a

;
1

i

126

Entered on FLSD Docket 01/30/2014

Page 3 of 8

(NOTE: Identify Changes with Asterisl;s (•))

Sheet 1A

Judgment — Page

DEFENDANT: RIGOBERTO CABRERA
CASE NUMBER: 0:13CR20339-COHN(s)-1

3

of

r

ADDITIONAL COUNTS OF CONVICTION

!
i

hr

Title & Section

i

;
i

|
I
I
I'I
I

ll
II
II
II
II
II
II
II
I I II
I II
II

18 U.S.C. 287

i

18 U.S.C. 287
!
!
i
i,

18 U.S.C. 287

i

!
1

4--.,

!
I

I

Making false, fictitious, and fraudulent claims

18 U.S.C. 1343

18 U.S.C. 1343

18 U.S.C. 1343

18

2/8/2010

I
-■

l
Making false, fictitious, and fraudulent claims

:

■ ■

19

3/30/2010
r ■

i

: :•

1

Making false, fictitious, and fraudulent claims
*
i
!

3/30/2010

20

3/30/2010

21

4/3/2009

22

I

■ i

1 :

18 U.S.C. 1349
i

!
f

!

!

i

Count

Offense Ended

Nature of Offense

1

t

Conspiracy to commit wire fraud
;
Wire fraud

i

i

23

4/24/2009

Wire fraud

i

i
Wire fraud

3/5/2010

24

i

I

!
?

Wire fraud

4/20/2010

25

18 U.S.C. 1956(h)

;
!
!
Conspiracy to commit money laundering

5/20/2010

26

18 USC 1956(a)(1)(B)(i)

Money laundering

3/8/2010

18 USC 1956(a)(1)(B)(i)

i
t

Money laundering
i
I
i

18 USC 1956(a)(1)(B)(i)

I II
I II
I II

18 USC 1956(a)(1)(B)(i)

'

27
i

<

\

•t

r

18 U.S.C. 1343

Money laundering

3/8/2010

28

5/4/2010

29

5/4/2010

30

■

!

j

Money laundering
}

I

t •'

I!

i
I

AO a^sqRlvBKCfA^aafeiaiaJl^t iiQeftttKlQtt 126 Entered on FLSD Docket 01/30/2014 Page 4 of 8

i

(NOTE: Identify Changes with Asteris ts (*))

Sheet 2 — Imprisonment

!
1

i

Judgment — Page

DEFENDANT: RIGOBERTO CABRERA
CASE NUMBER: 0:13CR20339-COHN(s)-1

)

3

IMPRISONMENT

i

1

i

ii

The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of
120 Months as to Count 1
60 Months as to Counts 3 thru 9 and 11 thru 20
240 Months as to Counts 21 thru 30
Count 1 and Counts 3 thru 9 and 11 thru 30 to be served concurrently with each other 52 Months as to Count 2 to be se ved
consecutively to the sentence imposed in Count 1 and Counts 3 thru 9 and 11 thru 30 TOTAL SENTENCE 292 MONTH 3

;

i

□ The court makes the following recommendations to the Bureau of Prisons:

!

i
;;
1
I

@{ The defendant is remanded to the custody of the United States Marshal.

s

□ The defendant shall surrender to the United States Marshal for this district:

3,
3

□

1

i»

□ a.m □ p.m.

□ at

?

□

i
i

i

as notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□

before 2 p.m. on

_____________________________

□

as notified by the United States Marshal.

□

as notified by the Probation or Pretrial Services Office.

|

j
i

on

.

RETURN
I have executed this judgment as follows:

i

I
j
;

to

Defendant delivered on
at

with a certified copy of this judgment.

i
!

UNITED STATES MARSHAL

•:

j
I
;
!
>

By.
DEPUTY UNITED STATES MARSHAL

,nP&«gfi'126 E"tered on FLSD Docket 01/30/2014 Page 5 of 8

AO 24

(NOTE: Identify Changes with Asterisl :s (•))

Sheet 3 — Supervised Release

i

Judgment—Page

DEFENDANT: RIGOBERTO CABRERA
CASE NUMBER: 0:13CR20339-COHN(s)-1

c
^

of

$

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of
3 YEARS AS TO COUNTS 1 THROUGH 9 and 11 THROUGH 30 TO ALL RUN CONCURRENTLY WITH EACH OTHE R.

!

1

The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release from
the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state, or local crime.
The defendant shall not unlawful!y possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled
substance. The defendant shall suibmit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.

1

!

□

i

i

!

The above drug testing condition is suspended, based on the court’s determination that the defendant poses a low risk of
future substance abuse. (Check, if applicable.)

6^ The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon. (Check, if applicable.)

i

5^ The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)

-|

□

The defendant shall register with the state sex offender registration agency in the state where the defendant resides, works, or is a
student, as directed by the probation officer. (Check, if applicable.)

I

□

The defendant shall participate in an approved program for domestic violence. (Check, if applicable.)

1
:1

If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance wi :h
the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any addit: onal
conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1

I
5

\
\
i

J

s

1)

the defendant shall not leave the judicial district without the permission of the court or probation officer;

2)

the defendant shall report to the probation officer in a manner and frequency directed by the court or probation officer;

3)

the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;

4)

the defendant shall support his or her dependents and meet other family responsibilities;

5)

the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;
the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;

6)
7)

the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;

I

8)

the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;

9)

the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convictlid of
a felony, unless granted permission to do so by the probation officer;

10)

the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of
any contraband observed in plain view of the probation officer;

!

11)

the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement off icer;

I

12)

the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency withouit the
permission of the court; and
as directed by the probation officer, the defendant shall notify third parties ofrisks that may be occasioned by the defendant’s criminal
record, personal nistory, or characteristics and shall permit the probation officer to make such notifications and confirm the
defendant’s compliance with such notification requirement.

;1

13)
i
j

i
i

}

Case l:13-cr-20339-JIC Document 126 Entered on FLSD Docket 01/30/2014 Page 6 of 8
AO 245C

(Rev. 09/11) Amended Judgment in a Criminal Case
Sheet 3C — Supervised Release

(NOTE: Identify Changes with Asterisl s (*))

]

t

I

)
1
\

1

■;

■!

i
i

!

I
?

DEFENDANT: RIGOBERTO CABRERA

Judgment—Page

^

of

(I

CASE NUMBER: 0:13CR20339-COHN(s)-1

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall also comply with the following additional conditions of supervised release:
Association Restriction - The defendant is prohibited from associating with co-defendant while on supervised release.
Cooperation with the IRS - The defendant shall cooperate fully with the Internal Revenue Service in determining and
paying any tax liabilities. The defendant shall provide to the Internal Revenue Service all requested documents and
information for purposes of any civil audits, examinations, collections, or other proceedings. It is further ordered that the
defendant file accurate income tax returns and pay all taxes, interest, and penalties due and owing by him to the Internal
Revenue Service.

$■i
i
i

Financial Disclosure Requirement - The defendant shall provide complete access to financial information, including
disclosure of all business and personal finances, to the U.S. Probation Officer.

I

No New Debt Restriction - The defendant shall not apply for, solicit or incur any further debt, included but not limited to
loans, lines of credit or credit card charges, either as a principal or cosigner, as an individual or through any corporate
entity, without first obtaining permission from the United States Probation Officer.

\

I

Self-Employment Restriction - The defendant shall obtain prior written approval from the Court before entering into any
self-employment.

i

?.
1

I
I

I
i5

;
i

?
\
1

Surrendering to Immigration for Removal After Imprisonment - At the completion of the defendant’s term of imprisonmen:,
the defendant shall be surrendered to the custody of the U.S. Immigration and Customs Enforcement for removal
proceedings consistent with the Immigration and Nationality Act. If removed, the defendant shall not reenter the United
States without the prior written permission of the Undersecretary for Border and Transportation Security. The term of
supervised release shall be non-reporting while the defendant is residing outside the United States. If the defendant
reenters the United States within the term of supervised release, the defendant is to report to the nearest U.S. Probation
Office within 72 hours of the defendant’s arrival.
Restitution with Imprisonment It is further ordered that the defendant shall pay joint and several restitution with co-defendant in the amount of
$1,526,622.00. During the period of incarceration, payment shall be made as follows: (1) if the defendant earns wages in
a Federal Prison Industries (UNICOR) job, then the defendant must pay 50% of wages earned toward the financial
obligations imposed by this Judgment in a Criminal Case; (2) if the defendant does not work in a UNICOR job, then the
defendant must pay $25.00 per quarter toward the financial obligations imposed in this order.
Upon release of incarceration, the defendant shall pay restitution at the rate of 10% of monthly gross earnings, until sucf
time as the court may alter that payment schedule in the interests of justice. The U.S. Bureau of Prisons, U.S. Probation
Office; and U.S. Attorney's Office shall monitor the payment of restitution and report to the court any material change in the
defendant’s ability to pay. These payments do not preclude the government from using other assets or income of the
defendant to satisfy the restitution obligations.
‘Findings for the total amount of losses are required under Chapters 109A, 110,110A, and 113A of Title 18, United Status
Code, for offenses committed on or after September 13, 1994, but before April 23,1996.

t

5
I

;
!

!
I

■!

!

I

i
3

I

Case l:13-cr-20339-JIC Document 126 Entered on FLSD Docket 01/30/2014 Page 7 of 8
AO 24 5C

(Rev. 09/11) Amended Judgment in a Criminal Case
Sheet 6 — Schedule of Payments

(NOTE: Identify Changes with Asterisl :s (*))

l
!
f
!

Judgment — Page

DEFENDANT: RIGOBERTO CABRERA
CASE NUMBER: 0:13CR20339-COHN(s)-1

7

0f

3

4
i

SCHEDULE OF PAYMENTS

!

I

Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties shall be due as follows:

1

A

□ not later than
□ in accordance with □ C,

i

1;
I

$ Lump sum payment of $ 2,900.00

□ D,

due immediately, balance due

□

, or
E, or

□ F below; or

B

O Payment to begin immediately (may be combined with

C

;
!
i

□ Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or

D

□ Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a
tenm of supervision; or

;
i

E

□ Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

i

F

□ Special instructions regarding the payment of criminal monetary penalties:

5
?

i

1

□ C,

□ D, or

□ F below); or

!:

i
!

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

i

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Joint and Several Amount, and
corresponding payee, if appropriate.
THE DEFENDANT SHALL PAY RESTITUTION IN THE AMOUNT OF $1,526,622.00 JOINT AND SEVERAL WITH
THE CODEFENDANT.

□

The defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court cost(s):

□

The defendant shall forfeit the defendant’s interest in the following property to the United States:
i

Payments shall beapplied in the following order: (lj assessment, (2) restitution principal, (3) restitutionmterest, (4) fine principal,

Wrtjfcffl3?8J£ £SSil!S&126 Entered on FLSD Docket 01,30/2014 Paea a °* a

AO 24

Sheet 5 — Criminal Monetary Penalties

?

I
!i

5
:
;

8

2_of

CRIMINAL MONETARY PENALTIES

l
.!

Judgment — Page

DEFENDANT: RIGOBERTO CABRERA
CASE NUMBER: 0:13CR20339-COHN(s)-1

i

i

(NOTE: Identify Changes with Asterisl :s (*))

The defendant must pay the following total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
Fine
Restitution
TOTALS
S 2,900.00
s
$ 1,526,622.00
□ D The determination of restitution is deferred until
entered after such determination.

. An Amended Judgment in a Criminal Case (AO 245C) will je

■

□ The defendant shall make restitution (including community restitution) to the following payees in the amount listed below.
inSepiorj^111^3^65 3 *3artta*^a^ment’teaCl*1 Pa^ejS^a*^ece*ve an approximately ^roportionedjDaj/rnent^ unless specified otherwise
:

I
Name of Pavee

Total Loss*

~Tt
M ■■

I-

if.

Priority or Percentage

I

'.■I'

■

Restitution Ordered

w. ■

i:

• rM

I II

. -r•i
•i

i:

j :

-til
: .•i:t . 'If

•- ;v ' "

!t

.1

:

•'

v--~ • ' :i

s'-

. i

. !•

|:t'-

:

TOTALS

$

$

□

Restitution amount ordered pursuant to plea agreement S____________________

□

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before :he
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

□

The court determined that the defendant does not have the ability to pay interest, and it is ordered that:
□ the interest requirement is waived for
Q the interest requirement for

□ fine

□ fine

I

1f

□ restitution.

!

□ restitution is modified as follows:

t-

f

t
i
i

* Findings for the total amount of losses are required under Chapters 109 A, 110,110A, and 113 A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

I
f

i
f

:

A-9

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013

3tfl£b-J)}Pf ft
ELECTRONIC

D.C.

SEP 10,2013
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA

STEVEN M. LARIMORE
CLERK U.S. OIST. CT.
S.O. OF FLA. MIAMI

CASE NO. 13-20339 CR-COHN-SELTZER/s)
18 U.S.C. § 286
18 U.S.C. § 287
18 U.S.C. § 1343
18 U.S.C. § 1349
18 U.S.C. § 1956(h)
18 U.S.C. § 1956(a)(l)(B)(i)
18 U.S.C. § 2
18 U.S.C. § 981(a)(1)(C)
18 U.S.C. § 982(a)(1)
UNITED STATES OF AMERICA
vs.
RIGOBERTO CABRERA
and CARLOS PEREZ,
Defendants.
SUPERSEDING INDICTMENT
The Grand Jury charges that:
GENERAL ALLEGATIONS
At all times relevant to this Superseding Indictment:
1.

Defendant RIGOBERTO CABRERA resided in Miami-Dade County, within the

Southern District of Florida.
2.

Defendant CARLOS PEREZ resided in Miami-Dade County, within the Southern

District of Florida.
3.

Big Records, LLC (“Big Records”) was a Florida Corporation incorporated on April

21, 2009, with CARLOS PEREZ as the sole registered agent and manager.
4.

CARLOS PEREZ opened a bank account at Bank of America, in Miami-Dade

County, in the name of Big Records on April 24, 2009.

1 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 2 of 17

5.

Regius Consulting Group LLC (“Regius Consulting”) was a Florida Corporation

incorporated on March 3, 2009, with CARLOS PEREZ as the sole registered agent and manager.
6.

CARLOS PEREZ opened a bank account at Bank of America, in Miami-Dade

County, in the name of Regius Consulting on March 4, 2009.
7.

Regius Financial Services, LLC (“Regius Financial”) was a Florida Corporation

incorporated on April 21,2009.
8.

Regius Investments Group LLC (“Regius Investments”) was a Florida Corporation

incorporated on April 21, 2009.
9.

Tool Palace, Inc. (“Tool Palace”) was a Florida Corporation incorporated on January

6,2010.
10.

Ultimate Tools, Inc. (“Ultimate Tools”) was a Florida Corporation incorporated on

February 3, 2010.
11.

Durable Flooring, Inc. (“Durable Flooring”) was a Florida Corporation incorporated

on January 7, 2010.
12.

The Internal Revenue Service (“IRS”) was an agency of the United States

Department of Treasury responsible for enforcing and administering the tax laws of the United
States, and collecting taxes owed to the United States.
13.

The IRS allowed United States individual taxpayers to file their tax returns

electronically (e-file) by filing online directly or through a tax preparer.
14.

The IRS required United States individual taxpayers to file their amended tax returns

by physically mailing in a paper return to IRS offices.
15.

An Internet Protocol or “IP” address was a unique series of numbers used to identify

computers over the Internet. Every computer connected to the Internet had to have an IP address,

2
2 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 3 of 17

which made it possible to identify the account from which a transmission was sent on a particular
date and time.
COUNT 1
Conspiracy to Defraud the Government With Respect to Claims
(18 U.S.C. § 286)
1.

Paragraphs 1 through 15 of the General Allegations section of this Superseding

Indictment are realleged and incorporated by reference as though fully set forth herein.
2.

From on or about January 24, 2009, and continuing through on or about March 30,

2010, in Miami-Dade County, in the Southern District of Florida, and elsewhere, the defendants,
RIGOBERTO CABRERA and
CARLOS PEREZ,
did knowingly and willfully combine, conspire, confederate, and agree with each other and with
persons known and unknown to the Grand Jury, to defraud the United States, and any department
and agency thereof, that is, the Internal Revenue Service, by obtaining and aiding to obtain the
payment and allowance of any false, fictitious and fraudulent claims, in violation of Title 18, United
States Code, Section 286.
PURPOSE OF THE CONSPIRACY
3.

It was the purpose of the conspiracy for the defendants and their co-conspirators to

unjustly enrich themselves by submitting false tax returns claiming false credits and deductions, and
receiving a percentage of the tax refunds received from the filing of the false returns.

MANNER AND MEANS OF THE CONSPIRACY
The manner and means by which the defendants and their co-conspirators sought to
accomplish the purpose and object of the conspiracy included, among others, the following:

3
3 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 4 of 17

4.

RIGOBERTO CABRERA and CARLOS PEREZ offered to prepare the

individual income tax returns for taxpayers whom they recruited and caused to be recruited with the
promise that the defendants would be able to obtain substantial tax refunds for the taxpayers.
5.

In return for the preparation of these tax returns, the recruited taxpayers agreed to

pay a percentage of the refunds they received to RIGOBERTO CABRERA and CARLOS
PEREZ.
6.

RIGOBERTO CABRERA and CARLOS PEREZ prepared and caused the

preparation of false, fictitious and fraudulent federal income tax returns on behalf of the recruited
taxpayers. The defendants attached or caused to be attached to the tax returns, IRS form 2439 that
falsely and fraudulently claimed that the taxpayers were entitled to a tax credit.
7.

RIGOBERTO CABRERA and CARLOS PEREZ also prepared and caused the

preparation of false, fictitious and fraudulent federal income tax returns on behalf of the recruited
taxpayers that claimed deductions to which the taxpayers were not entitled, including Schedule C
attachments claiming fraudulent gross receipts and expenses.
8.

Based on the false and fraudulent income tax returns, RIGOBERTO CABRERA

and CARLOS PEREZ caused the IRS to wire tax refunds from the IRS to the taxpayers’ bank
accounts.
9.

After the recruited taxpayers received their fraudulently obtained refunds from the

IRS, RIGOBERTO CABRERA and CARLOS PEREZ would collect from the taxpayers a
percentage of the funds as payment.
10.

RIGOBERTO CABRERA and CARLOS PEREZ set up and had access to bank

accounts for Big Records and Regius Consulting and would, in some instances, direct the taxpayers
to pay them through checks made payable to those companies. In other instances, the defendants
directed the taxpayers to pay them through checks made payable to companies that the defendants
4
4 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 5 of 17

controlled indirectly, such as Regius Financial, Regius Investments, and shell companies such as
Tool Palace, Ultimate Tools, and Durable Flooring.
All in violation of Title 18, United States Code, Section 286.
COUNTS 2-20
False, Fictitious and Fraudulent Claims
(18U.S.C. § 287)
1.

Paragraphs 1 through 15 of the General Allegations section of this Superseding

Indictment are realleged and incorporated by reference as though fully set forth herein.
2.

On or about the dates set forth below, in Miami-Dade County, in the Southern

District of Florida and elsewhere, the defendants identified below, knowingly made and presented,
and caused to be made and presented, to the Internal Revenue Service (“IRS”), an agency of the
United States, materially false, fictitious and fraudulent claims upon and against the United States
and the IRS, specifically, false individual United States income tax returns and supporting
documents, including Internal Revenue Service forms 1040, 1040X, and 2439, fraudulently
claiming tax refunds in the amounts and on behalf of the taxpayers listed below, knowing such
claims were false, fictitious and fraudulent:
False
Claim

Taxpayer

Approximate
Date of
Claim

Approximate Refund
Claimed

2008
amended
individual
income tax
return

J.D.

5/07/2009

$25,550

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
individual
income tax
return

W.W.

3/17/2009

$36,167

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
individual
income tax
return

J.A.

3/18/2009

$37,100

Count

Defendants!

2

RIGOBERTO
CABRERA
and CARLOS
PEREZ

3

4

5
5 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 6 of 17

False
Claim

Taxpayer

Approximate
Date of
Claim

Approximate Refund
Claimed

2008
individual
income tax
return

A.M.

3/23/2009

$76,984

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
individual
income tax
return

R. R.

3/28/2009

$47,544

7

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
individual
income tax
return

M.G.

3/14/2009

$42,934

8

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
individual
income tax
return

L.G.

4/15/2009

$45,952

9

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
individual
income tax
return

T.O.

4/15/2009

$47,698

10

CARLOS
PEREZ

2008
amended
individual
income tax
return

CARLOS
PEREZ

4/24/2009

$42,180

11

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
amended
individual
income tax
return

L.N.

5/22/2009

$24,210

12

RIGOBERTO
CABRERA

2008
RIGOBERTO
individual
CABRERA
income tax
return

6/18/2009

$544,584

13

RIGOBERTO
CABRERA

2008
amended
individual
income tax
return

5/22/2009

$56,881

Count

Defendant's)

5

RIGOBERTO
CABRERA

6

M.M.

6
6 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 7 of 17

False
Claim

Taxpayer

Approximate
Date of
Claim

Approximate Refund
Claimed

2008
amended
individual
income tax
return

C.L.

8/21/2009

$42,177

RIGOBERTO
CABRERA

2009
individual
income tax
return

Y.R

1/23/2010

$73,973

16

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2009
individual
income tax
return

L.G.

1/27/2010

$63,519

17

RIGOBERTO
CABRERA

2009
individual
income tax
return

M.M.

1/29/2010

$77,617

18

RIGOBERTO
CABRERA

2009
individual
income tax
return

M.G.

2/08/2010

$55,967

19

RIGOBERTO
CABRERA

2009
individual
income tax
return

J.D.

3/30/2010

$47,393

20

RIGOBERTO
CABRERA

2009
individual
income tax
return

W.W.

3/30/2010

$70,475

Count

Defendantfs)

14

R1GOBERTO
CABRERA
and CARLOS
PEREZ

15

In violation of Title 18, United States Code, Sections 287 and 2.
COUNT 21
Conspiracy to Commit Wire Fraud
(18.S.C. § 1349)
1.

Paragraphs 1 through 15 of the General Allegations section of this Superseding

Indictment are realleged and incorporated by reference as though fully set forth herein.

7
7 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 8 of 17

2.

From on or about January 24,2009, and continuing through on or about March 30,

2010, in Miami-Dade County, in the Southern District of Florida, and elsewhere, the defendants,
RIGOBERTO CABRERA and
CARLOS PEREZ,
did willfully, that is, with the intent to further the object of the conspiracy, and knowingly combine,
conspire, confederate and agree with each other, and others known and unknown to the Grand Jury,
to violate Title 18, United States Code, Section 1343, that is, to knowingly and with the intent to
defraud, devise and intend to devise a scheme and artifice to defraud and to obtain money and
property by means of materially false and fraudulent pretenses, representations, and promises,
knowing that they were false and fraudulent when made, and, for the purpose of executing such
scheme and artifice, transmitting and causing to be transmitted by means of wire communication in
interstate and foreign commerce, certain writings, signs, signals, pictures, and sounds.
PURPOSE OF THE CONSPIRACY
3.

It was the purpose of the conspiracy for the defendants and their co-conspirators to

unjustly enrich themselves by submitting false tax returns claiming false credits and deductions, and
receiving a percentage of the tax refunds received from the filing of the false returns.
MANNER AND MEANS
4.

Paragraphs 4 through 10 of the Manner and Means section of Count 1 of this

Superseding Indictment are realleged and incorporated by reference as though fully set forth herein
as a description of the Manner and Means.
All in violation of Title 18, United States Code, Section 1349.

8
8 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 9 of 17

COUNTS 22-25
Wire Fraud
(18 U.S.C. § 1343)
1.

Paragraphs 1 through 15 of the General Allegations section of this Superseding

Indictment are realleged and incorporated by reference as though fully set forth herein.
2.

From on or about January 24,2009, and continuing through on or about March 30,

2010, in Miami-Dade County, in the Southern District of Florida, and elsewhere, the defendants,
RIGOBERTO CABRERA and
CARLOS PEREZ,
did knowingly and with intent to defraud, devise and intend to devise a scheme and artifice to
defraud and to obtain money and property by means of materially false and fraudulent pretenses,
representations, and promises, knowing that the pretenses, representations, and promises were false
and fraudulent when made, and did knowingly transmit and cause to be transmitted by means of
wire communication in interstate and foreign commerce, certain writings, signs, signals, pictures
and sounds for the purpose of executing the scheme and artifice.
PURPOSE OF THE SCHEME AND ARTIFICE
3.

It was the purpose and object of the scheme and artifice for the defendants and their

accomplices to unjustly enrich themselves by submitting false tax returns claiming false credits and
deductions, and receiving a percentage of the tax refunds received from the filing of the false
returns.
SCHEME AND ARTIFICE
4.

Paragraphs 4 through 10 of the Manner and Means section of Count 1 of this

Superseding Indictment are realleged and incorporated by reference as though fully set forth herein
as a description of the Scheme and Artifice.

9
9 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 10 of 17

USE OF THE WIRES
5.

On or about the dates enumerated as to each count below, in Miami-Dade County, in

the Southern District of Florida, RIGOBERTO CABRERA and CARLOS PEREZ, as specified
below, for the purpose of executing the aforesaid scheme and artifice to defraud, and to obtain
money and property by means of materially false and fraudulent pretenses, representations, and
promises, did knowingly transmit and cause to be transmitted, by means of wire communication in
interstate and foreign commerce, certain writings, signs, signals, pictures, and sounds, as more
particularly described below:
Count

Defendants!

Approximate

Date

Use of the Wires

22

RIGOBERTO
CABRERA
and CARLOS
PEREZ

04/3/2009

Wiring of tax refund in the approximate amount of
$36,167 from the IRS in Minneapolis, MN to
W.W.’s
Bank
Atlantic
account
No.
XXXXXXXXX-2478 in Miami, Florida.

23

RIGOBERTO
CABRERA
and CARLOS
PEREZ

04/24/2009

Wiring of tax refund in the approximate amount of
$47,544 from the IRS in Minneapolis, MN to
R.R.’s Bank of America account No.
XXXXXXXXX-1687 in Miami, Florida.

24

RIGOBERTO
CABRERA

03/5/2010

Wiring of tax refund in the approximate amount of
$53,075 fr^^^^in ^i^apolis, MN to
M.G. s Bank -qf Aincnm. account No.
•ft 8
XXXXXXXXX-7827 in Miami, Florida.

RIGOBERTO
CABRERA

04/20/2010

25

2)

Wiring of tax refund in the approximate amount of
$70,475 from the IRS in Minneapolis, MN to
W.W.’s Regions account No. XXXXXXXXX3676 in Miami, Florida.

In violation of Title 18, United States Code, Sections 1343 and 2.
COUNT 26
Conspiracy to Commit Money Laundering
(18 U.S.C. § 1956(h))
Beginning on or about December 18, 2009, and continuing through on or about May 20,
2010, in Miami-Dade County, in the Southern District of Florida, and elsewhere, the defendant,
10
10 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 11 of 17

RIGOBERTO CABRERA,
did willfully, that is, with the intent to further the object of the conspiracy, and knowingly combine,
conspire, confederate, and agree with E.O. and with others known and unknown to the Grand Jury
to violate Title 18, United States Code, Section 1956, that is, to knowingly conduct a financial
transaction affecting interstate commerce involving the proceeds of specified unlawful activity,
knowing that the property involved in the financial transaction represented the proceeds of some
form of unlawful activity, and knowing that the transaction was designed in whole and in part to
conceal and disguise the nature, the location, the source, the ownership, and the control of the
proceeds of specified unlawful activity, in violation of Title 18, United States Code, Section
1956(a)(l)(B)(i).
It is further alleged that the specified unlawful activity is conspiracy to commit wire fraud
and wire fraud in violation of Title 18, United States Code, Sections 1349 and 1343.
All in violation of Title 18, United States Code, Section 1956(h).
COUNTS 27-30
Money Laundering
(18 U.S.C. § 1956(a)(l)(B)(i))
On or about the dates specified as to each count below, in Miami-Dade County, in the Southern
District of Florida, and elsewhere, the defendant,
RIGOBERTO CABRERA,
did knowingly conduct and attempt to conduct a financial transaction affecting interstate commerce,
which transaction involved the proceeds of specified unlawful activity, knowing that the property
involved in the financial transaction represented the proceeds of some form of unlawful activity, and
knowing that the transaction was designed in whole and in part to conceal and disguise the nature, the
location, the source, the ownership, and the control of the proceeds of the specified unlawful activity, as
set forth in each count below:

11
11 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 12 of 17

Count

Approximate

Date

Description of Financial Transaction

27

3/8/2010

The deposit of approximately $10,000 into
Wachovia Bank Account xxxxxxxxx5451 made
payable to Durable Flooring Inc. from M.G.

28

3/8/2010

The deposit of approximately $ 10,500 into TD
Bank Account xxxxxxl 715 made payable to Tool
Palace Inc. from M.G.

29

5/4/2010

The deposit of approximately $ 12,937 into TD
Bank Account xxxxxx7420 made payable to
Ultimate Tools from W.W.

30

5/4/2010

The deposit of approximately $16,300 into TD
Bank Account xxxxxxl 715 made payable to Tool
Palace Inc. from W.W.

It is further alleged that the specified unlawful activity is conspiracy to commit wire fraud and
wire fraud in violation of Title 18, United States Code, Sections 1349 and 1343.
In violation of Title 18, United States Code, Sections 1956(a)(l)(B)(i) and 2.
FORFEITURE
(18 U.S.C. §§ 981(a)(1)(C), 982(a)(1))
1.

The General Allegations and the allegations of Counts 21 through 30 of this

Superseding Indictment are re-alleged and by this reference fully incorporated herein for the
purpose of alleging forfeiture to the United States of America of certain property in which one or
more of the defendants, RIGOBERTO CABRERA and CARLOS PEREZ, have an interest.
2.

Upon conviction of a violation of Title 18, United States Code, Section 1343 or 1349,

as alleged in Counts 21 through 25 of this Superseding Indictment, the defendants, RIGOBERTO
CABRERA and CARLOS PEREZ, shall forfeit to the United States, pursuant to Title 18, United
States Code, Section 981(a)(1)(C), made applicable by Title 28, United States Code, Section
2461(c), all property, real and personal, which constitutes, or is derived from, proceeds traceable to
such violation.
12
12 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 13 of 17

3.

Upon conviction of a violation of Title 18, United States Code, Section 1956, as

alleged in Counts 26 through 30 of this Superseding Indictment, the defendants, RIGOBERTO
CABRERA, shall forfeit to the United States, pursuant to Title 18, United States Code, Section
982(a)(1), all property, real and personal, that was involved in such offense, and all property
traceable to such property.
All pursuant to Title 18, United States Code, Sections 981(a)(1)(C), 982(a)(1) and 982(b)(1),
Title 28, United States Code, Section 2461(c), and the procedures set forth in Title 21, United States
Code, Section 853.

A TRUE BILL

FOREPERSON

{

WIFREDO A. FERRER
UNITED STATES ATTORNEY

DANIEL BERNSTEIN
ASSISTANT UNITED STATES ATTORNEY

./ 1

ALEJANDRO O. SOTO
(__ >
ASSISTANT UNITED STATES ATTORNEY

13
13 of 17

Case l:13-cr-20339-JIC Docu09/11/2013 Pa9e 14 of 17
UNITED STATES OF AMERICA

13-20339-CR-COHN(S)

CASE NO.

vs.

CERTIFICATE OF TRIAL ATTORNEY*

RIGOBERTO CABRERA and
CARLOS PEREZ,
Defendants.

J

Court Division: (Select One)
Miami -----FTL
___

Key West
WPB ___

FTP

Superseding Case Information: 13-20339-CR-COHN

New Defendant(s)
Number of New Defendants
Total number of counts

Yes
£■

I do hereby certify that:

1.

I have carefully considered the allegations of the indictment, the number of defendants, the number of
probable witnesses and the legal complexities of the Indictment/Information attached hereto.

2.

the Judges of this
e Speedy Trial Act,

Court in setting their calendars
Title 28 U.S.u Section 3161.
3.
4.
5.

Interpreter:
(Yes or No)
List language and/or dialect
This case will take

_14—

Ve>g

Spanish

days for the parties to try.

Please check appropriate category and type of offense listed below:
(Check only one)

i
III

IV
V

0 to 5 days
6 to 10 days
11 to 20 days
21 to 60 days
61 days and over

(Check only one)

Petty
Minor
Misdem.
Felony

x

X

6.
Nn
Has this case been previously filed in this District Court? (Yes or No)
If yes:
rinhn
Judge:
____________________
13-9n33g.r F?-r.nnM
Case No.
(Attach copy of dispositive order)
Mn
Has a complaint been filed in this matter?
(Yes or No)
If yes:
Magistrate Case No.
Related Miscellaneous numbers:
Defendant(s) in federal custody as of
Defendant(s) in state custody as of
Rule 20 from the ________________
District of
Is this a potential death penalty case? (Yes or No)

Mn

7.

Doesjhiscase ornate from a matter pending in the Northern Region of the U.S. Attorney’s Office prior

8.

to°Septemt^rei°2?)07?e fr°m a mytter PendiQ9in the Central Region of the U.S. Attorney's Office prior

Aleiafidro O. Soto
ASSISTANT UNITED STATES ATTORNEY
Florida Bar No./Court No. 0172847
’Penalty Sheet(s) attached

14 of 17

REV 4/8/00

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 15 of 17

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
PENALTY SHEET
Defendant's Name: RIGOBERTO CABRERA 13-20339-CR-COHN/St
Case No:
Count #: 1
Conspiracy to Defraud the Government with Respect to Claims
Title 18. United States Code. Section 286
*Max.Penalty: Ten (10) years' imprisonment
Counts #: 2-9,11-20
False. Fraudulent and Fictitious Claims
Title 18. United States Code. Section 287
*Max.Penalty: Twenty (20) years' imprisonment as to each count
Count #: 21
Conspiracy to Commit Wire Fraud
Title 18. United States Code. Section 1349
*Max.Penalty: Twenty (20) years' imprisonment
Counts #: 22-25
Wire Fraud
Title 18. United States Code. Section 1343
*Max.Penalty: Twenty (20) years' imprisonment as to each count

15 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 16 of 17

Count #: 26
Conspiracy to Commit Money Laundering
Title 18. United States Code. Section 195601)
*Max.Penalty: Twenty (20) years' imprisonment as to each count
Counts # 27-30
Money Laundering
Title 18. United States Code. Section 1956(ayn(BV,iY)
*Max.Penalty: Twenty (20) years' imprisonment as to each count

2

16 of 17

Case l:13-cr-20339-JIC Document 50 Entered on FLSD Docket 09/11/2013 Page 17 of 17

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
PENALTY SHEET
Defendant’s Name: CARLOS PEREZ 13-20339-CR-CQHN(S)
Case No:
Count #: 1
Conspiracy to Defraud the Government with Respect to Claims
Title 18. United States Code. Section 286
*Max.Penalty: Ten (10) years' imprisonment
Counts #: 29, 6-11, 14,16
False. Fraudulent and Fictitious Claims
Title 18. United States Code. Section 287
*Max.PenaIty: Ten (10) years' imprisonment as to each count
Count #: 21
Conspiracy to Commit Wire Fraud
Title 18. United States Code. Section 1349
*Max.Penalty: Twenty (20) years' imprisonment
Counts #: 22-23
Wire Fraud
Title 18. United States Code. Sectionl343
*Max.Penalty: Twenty (20) years' imprisonment as to each count

17 of 17

A—10

*

9

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013

1 g&T*aMc

IGF

—“**“

0*€.

May 14, 2013

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA

13-20339-CR-COHN/SELTZER

i

tr.s. ®st. *r.
S.Oi OF ft*. - MttW

CASE NO.

18 U.S.C. § 286
18 U.S.C. § 287
18 U.S.C. § 1343
18 U.S.C. § 1349
18 U.S.C. § 1956(h)
18 U.S.C. § 1956(a)(l)(B)(i)
18 U.S.C. § 2
18 U.S.C. § 981(a)(1)(C)
18 U.S.C. § 982(a)(1)
UNITED STATES OF AMERICA
vs.

RIGOBERTO CABRERA
and CARLOS PEREZ,
Defendants.
INDICTMENT
The Grand Jury charges that:
GENERAL ALLEGATIONS
At all times relevant to this indictment:
1,

Defendant RIGOBERTO CABRERA resided in Miami-Dade County, within the

Southern District of Florida.
2.

Defendant CARLOS PEREZ resided Miami-Dade County, within the Southern

District of Florida.
3.

Big Records, LLC (“Big Records”) was a Florida Corporation incorporated on April

21, 2009, with CARLOS PEREZ as the sole registered agent and manager.
4.

CARLOS PEREZ opened a bank account at Bank of America, in Miami-Dade

County, in the name of Big Records on April 24, 2009.

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 2 of 17

5.

Regius Consulting Group LLC (“Regius Consulting”) was a Florida Corporation

incorporated on March 3, 2009, with CARLOS PEREZ as the sole registered agent and manager.
6.

CARLOS PEREZ opened a bank account at Bank of America, in Miami-Dade

County, in the name of Regius Consulting on March 4, 2009.
7.

Regius Financial Services, LLC (“Regius Financial”) was a Florida Corporation

incorporated on April 21, 2009.
8.

Regius Investments Group LLC (“Regius Investments”) was a Florida Corporation

incorporated on April 21, 2009.
9.

Tool Palace, Inc. (“Tool Palace”) was a Florida Corporation incorporated on January

6, 2010.

10.

Ultimate Tools, Inc. (“Ultimate Tools”) was a Florida Corporation incorporated on

February 3, 2010.
11.

Durable Flooring, Inc. (“Durable Flooring”) was a Florida Corporation incorporated

on January 7, 2010.
12.

The Internal Revenue Service (“IRS”) was an agency of the United States

Department of Treasury responsible for enforcing and administering the tax laws of the United
States, and collecting taxes owed to the United States.
13.

The IRS allowed United States individual taxpayers to file their tax returns

electronically (e-file) by filing online directly or through a tax preparer.
14.

The IRS required United States individual taxpayer to file their amended tax returns

by physically mailing in a paper return to IRS offices.
15.

An Internet Protocol or “IP” address was a unique series of numbers used to identify

computers over the Internet. Every computer connected to the Internet had to have an IP address,

2

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 3 of 17

which made it possible to identify the account from which a transmission was sent on a particular
date and time.
COUNT 1
Conspiracy to Defraud the Government With Respect to Claims
(18U.S.C. § 286)
1.

Paragraphs 1 through 15 of the General Allegations Section of this Indictment are

realleged and incorporated by reference as though fully set forth herein.
2.

From on or about January 24, 2009, and continuing through on or about March 30,

2010, in Miami-Dade County, in the Southern District of Florida, and elsewhere, the defendants,
RIGOBERTO CABRERA and
CARLOS PEREZ,
did knowingly and willfully combine, conspire, confederate, and agree with each other and with
persons known and unknown to the Grand Jury, to defraud the United States, and any department
and agency thereof, that is, the Internal Revenue Service, by obtaining and aiding to obtain the
payment and allowance of any false, fictitious and fraudulent claims, in violation of Title 18, United
States Code, Section 286.
PURPOSE OF THE CONSPIRACY
3.

It was the purpose of the conspiracy for the defendants and their co-conspirators to

unjustly enrich themselves by submitting false tax returns claiming false credits and deductions, and
receiving a percentage of the tax refunds received from the filing of the false returns.
MANNER AND MEANS OF THE CONSPIRACY
The manner and means by which the defendants and their co-conspirators sought to
accomplish the purpose and object of the conspiracy included, among others, the following:

3

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 4 of 17

4.

RIGOBERTO CABRERA and CARLOS PEREZ offered to prepare the

individual income tax returns for taxpayers whom they recruited and caused to be recruited with the
promise that the defendants would be able to obtain substantial tax refunds for the taxpayers.
5.

In return for the preparation of these tax returns, the recruited taxpayers agreed to

pay a percentage of the refunds they received to RIGOBERTO CABRERA and CARLOS
PEREZ.
6.

RIGOBERTO CABRERA and CARLOS PEREZ prepared and caused the

preparation of false, fictitious and fraudulent federal income tax returns on behalf of the recruited
taxpayers. The defendants attached or caused to be attached to the tax returns, IRS form 2439 that
falsely and fraudulently claimed that the taxpayers were entitled to a tax credit.
7.

RIGOBERTO CABRERA and CARLOS PEREZ also prepared and caused the

preparation of false, fictitious and fraudulent federal income tax returns on behalf of the recruited
taxpayers that claimed deductions to which the taxpayers were not entitled, including Schedule C
attachments claiming fraudulent gross receipts and expenses.
8.

Based on the false and fraudulent income tax returns, RIGOBERTO CABRERA

and CARLOS PEREZ caused the IRS to wire tax refunds from the IRS to the taxpayers’ bank
accounts.
9.

After the recruited taxpayers received their fraudulently obtained refunds from the

IRS, RIGOBERTO CABRERA and CARLOS PEREZ would collect from the taxpayers a
percentage of the funds as payment.
10.

RIGOBERTO CABRERA and CARLOS PEREZ set up and had access to bank

accounts for Big Records and Regius Consulting and would, in some instances, direct the taxpayers
to pay them through checks made payable to those companies. In other instances, the defendants
directed the taxpayers to pay them through checks made payable to companies that the defendants
4

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 5 of 17

controlled indirectly, such as Regius Financial, Regius Investments, and shell companies such as
Tool Palace, Ultimate Tools, and Durable Flooring.
All in violation of Title 18, United States Code, Section 286.
COUNTS 2-20
False, Fictitious and Fraudulent Claims
(18U.S.C. §287)
1.

Paragraphs 1 through 15 of the General Allegations Section of this Indictment are

realleged and incorporated by reference as though fully set forth herein.
2.

On or about the dates set forth below, in Miami-Dade County, in the Southern

District of Florida and elsewhere, the defendants identified below, knowingly made and presented,
and caused to be made and presented, to the Internal Revenue Service (“IRS”), an agency of the
United States, materially false, fictitious and fraudulent claims upon and against the United States
and the IRS, specifically, false individual United States income tax returns and supporting
documents, including Internal Revenue Service forms 1040, 1040X, and 2439, fraudulently
claiming tax refunds in the amounts and on behalf of the taxpayers listed below, knowing such
claims were false, fictitious and fraudulent:
False
Claim

Taxpayer

Approximate
Date of
Claim

Approximate Refund
Claimed

2008
amended
individual
income tax
return

J.D.

1/24/2009

$25,550

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
individual
income tax
return

W.W.

3/17/2009

$36,167

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
individual
income tax
return

J.A.

3/18/2009

$37,100

Count

Defend an t/s)

2

RIGOBERTO
CABRERA
and CARLOS
PEREZ

3

4

5

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 6 of 17

False
Claim

Taxpayer

Approximate
Date of
Claim

Approximate Refund
Claimed

2008
individual
income tax
return

A.M.

3/23/2009

$76,984

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
individual
income tax
return

R. R.

3/28/2009

$47,544

7

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
individual
income tax
return

M.G.

4/6/2009

$42,934

8

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
individual
income tax
return

L.G.

4/15/2009

$45,952

9

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
individual
income tax
return

T.O.

4/15/2009

$47,698

10

CARLOS
PEREZ

2008
amended
individual
income tax
return

CARLOS
PEREZ

4/24/2009

$42,180

11

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2008
amended
individual
income tax
return

L.N.

5/22/2009

$24,210

12

RIGOBERTO
CABRERA

2008
individual
income tax
return

RIGOBERTO
CABRERA

6/18/2009

$544,584

13

RIGOBERTO
CABRERA

2008
amended
individual
income tax
return

M.M.

7/24/2009

$56,881

Count

Defendants

5

RIGOBERTO
CABRERA

6

6

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 7 of 17

False
Claim

Taxpayer

Approximate
Date of
Claim

Approximate Refund
Claimed

2008
amended
individual
income tax
return

C.L.

8/21/2009

$42,177

RIGOBERTO
CABRERA

2009
individual
income tax
return

Y.R

1/23/2010

$73,973

16

RIGOBERTO
CABRERA
and CARLOS
PEREZ

2009
individual
income tax
return

L.G.

1/27/2010

$63,519

17

RIGOBERTO
CABRERA

2009
individual
income tax
return

M.M.

1/29/2010

$77,617

18

RIGOBERTO
CABRERA

2009
individual
income tax
return

M.G.

3/01/2010

$55,967

19

RIGOBERTO
CABRERA

2009
individual
income tax
return

J.D.

3/30/2010

$47,393

20

RIGOBERTO
CABRERA

2009
individual
income tax
return

W.W.

3/30/2010

$70,475

Count

Defendantfsl

14

RIGOBERTO
CABRERA
and CARLOS
PEREZ

15

In violation of Title 18, United States Code, Sections 287 and 2.
COUNT 21
Conspiracy to Commit Wire Fraud
(18.S.C. § 1349)
1.

Paragraphs 1 through 15 of the General Allegations Section of this Indictment are

realleged and incorporated by reference as though fully set forth herein.

7

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 8 of 17

2.

From on or about January 24,2009, and continuing through on or about March 30,

2010, in Miami-Dade County, in the Southern District of Florida, and elsewhere, the defendants,
RIGOBERTO CABRERA and
CARLOS PEREZ,
did willfully, that is, with the intent to further the object of the conspiracy, and knowingly combine,
conspire, confederate and agree with each other, and others known and unknown to the Grand Jury,
to violate Title 18, United States Code, Section 1343, that is, to knowingly and with the intent to
defraud, devise and intend to devise a scheme and artifice to defraud and to obtain money and
property by means of materially false and fraudulent pretenses, representations, and promises,
knowing that they were false and fraudulent when made, and, for the purpose of executing such
scheme and artifice, transmitting and causing to be transmitted by means of wire communication in
interstate and foreign commerce, certain writings, signs, signals, pictures, and sounds.
PURPOSE OF THE CONSPIRACY
3.

It was the purpose of the conspiracy for the defendants and their co-conspirators to

unjustly enrich themselves by submitting false tax returns claiming false credits and deductions, and
receiving a percentage of the tax refunds received from the filing of the false returns.
MANNER AND MEANS
4.

Paragraphs 4 through 10 of the Manner and Means Section of Count 1 of this

Indictment are realleged and incorporated by reference as though fully set forth herein as a
description of the Manner and Means.
All in violation of Title 18, United States Code, Section 1349.

8

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 9 of 17

COUNTS 22-25
Wire Fraud
(18 U.S.C. § 1343)
1.

Paragraphs 1 through 15 of the General Allegations Section of this Indictment are

realleged and incorporated by reference as though fully set forth herein.
2.

From on or about January 24, 2009, and continuing through on or about March 30,

2010, in Miami-Dade County, in the Southern District of Florida, and elsewhere, the defendants,
RIGOBERTO CABRERA and
CARLOS PEREZ,
did knowingly and with intent to defraud, devise and intend to devise a scheme and artifice to
defraud and to obtain money and property by means of materially false and fraudulent pretenses,
representations, and promises, knowing that the pretenses, representations, and promises were false
and fraudulent when made, and did knowingly transmit and cause to be transmitted by means of
wire communication in interstate and foreign commerce, certain writings, signs, signals, pictures
and sounds for the purpose of executing the scheme and artifice.
PURPOSE OF THE SCHEME AND ARTIFICE
3.

It was the purpose and object of the scheme and artifice for the defendants and their

accomplices to unjustly enrich themselves by submitting false tax returns claiming false credits and
deductions, and receiving a percentage of the tax refunds received from the filing of the false
returns.
SCHEME AND ARTIFICE
4.

Paragraphs 4 through 10 of the Manner and Means Section of Count 1 of this

Indictment are realleged and incorporated by reference as though fully set forth herein as a
description of the Scheme and Artifice.

9

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 10 of 17

USE OF THE WIRES
5.

On or about the dates enumerated as to each count below, in Miami-Dade County, in

the Southern District of Florida, RIGOBERTO CABRERA and CARLOS PEREZ, as specified
below, for the purpose of executing the aforesaid scheme and artifice to defraud, and to obtain
money and property by means of materially false and fraudulent pretenses, representations, and
promises, did knowingly transmit and cause to be transmitted, by means of wire communication in
interstate and foreign commerce, certain writings, signs, signals, pictures, and sounds, as more
particularly described below:
Count

Defendant(s)

Approximate
Date

22

RIGOBERTO
CABRERA
and CARLOS
PEREZ

04/3/2009

Wiring of tax refund in the approximate amount of
$36,167 from the IRS in Minneapolis, MM to
W.W.’s
Bank
Atlantic
account
No.
XXXXXXXXX-2478 in Miami, Florida.

23

RIGOBERTO
CABRERA
and CARLOS
PEREZ

04/24/2009

Wiring of tax refund in the approximate amount of
$47,544 from the IRS in Minneapolis, MN to
R.R.’s Bank of America account No.
XXXXXXXXX-1687 in Miami, Florida.

24

RIGOBERTO
CABRERA

03/5/2010

Wiring of tax refund in the approximate amount of
$53,075 from the IRS in Minneapolis, MN to
M.G.’s Bank of America account No.
XXXXXXXXX-7827 in Miami, Florida.

25

RIGOBERTO
CABRERA

04/20/2010

Wiring of tax refund in the approximate amount of
$70,475 from the IRS in Minneapolis, MN to
W.W.’s Regions account No. XXXXXXXXX3676 in Miami, Florida.

Use of the Wires

In violation of Title 18, United States Code, Sections 1343 and 2.
COUNT 26
Conspiracy to Commit Money Laundering
(18 U.S.C. § 1956(h))
Beginning on or about December 18, 2009, and continuing through on or about May 20,
2010, in Miami-Dade County, in the Southern District of Florida, and elsewhere, the defendant,
10

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 11 of 17

RIGOBERTO CABRERA,
did willfully, that is, with the intent to further the object of the conspiracy, and knowingly combine,
conspire, confederate, and agree with E.O. and with others known and unknown to the Grand Jury
to violate Title 18, United States Code, Section 1956, that is, to knowingly conduct a financial
transaction affecting interstate commerce involving the proceeds of specified unlawful activity,
knowing that the property involved in the financial transaction represented the proceeds of some
form of unlawful activity, and knowing that the transaction was designed in whole and in part to
conceal and disguise the nature, the location, the source, the ownership, and the control of the
proceeds of specified unlawful activity, in violation of Title 18, United States Code, Section
1956(a)(l)(B)(i).
It is further alleged that the specified unlawful activity is conspiracy to commit wire fraud
and wire fraud in violation of Title 18, United States Code, Sections 1349 and 1343.
All in violation of Title 18, United States Code, Section 1956(h).
COUNTS 27-30
Money Laundering
(18 U.S.C. § 1956(a)(l)(B)(i»
On or about the dates specified as to each count below, in Miami-Dade County, in the Southern
District of Florida, and elsewhere, the defendant,
RIGOBERTO CABRERA,
did knowingly conduct and attempt to conduct a financial transaction affecting interstate commerce,
which transaction involved the proceeds of specified unlawful activity, knowing that the property
involved in the financial transaction represented the proceeds of some form of unlawful activity, and
knowing that the transaction was designed in whole and in part to conceal and disguise the nature, the
location, the source, the ownership, and the control of the proceeds of the specified unlawful activity, as
set forth in each count below:

11

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 12 of 17

Count

Approximate

Date

Description of Financial Transaction

27

3/8/2010

The deposit of approximately $10,000 into
Wachovia Bank Account xxxxxxxxx5451 made
payable to Durable Flooring Inc. from M.G.

28

3/8/2010

The deposit of approximately $10,500 into TD
Bank Account xxxxxxl715 made payable to Tool
Palace Inc. from M.G.

29

5/4/2010

The deposit of approximately $12,937 into TD
Bank Account xxxxxx7420 made payable to
Ultimate Tools from W.W.

30

5/4/2010

The deposit of approximately $16,300 into TD
Bank Account xxxxxxl715 made payable to Tool
Palace Inc. from W.W.

It is further alleged that the specified unlawful activity is conspiracy to commit wire fraud and
wire fraud in violation of Title 18, United States Code, Sections 1349 and 1343.
In violation of Title 18, United States Code, Sections 1956(a)( 1 )(B)(i) and 2.

FORFEITURE
(18 U.S.C. §§ 981(a)(1)(C), 982(a)(1))
1.

The General Allegations and the allegations of Counts 21 through 30 of this

Indictment are re-alleged and by this reference fully incorporated herein for the purpose of alleging
forfeiture to the United States of America of certain property in which one or more of the
defendants, RIGOBERTO CABRERA and CARLOS PEREZ, have an interest.

2.

Upon conviction of a violation of Title 18, United States Code, Section 1343 or 1349,

as alleged in Counts 21 through 25 of this Indictment, the defendants, RIGOBERTO CABRERA
and CARLOS PEREZ, shall forfeit to the United States, pursuant to Title 18, United States Code,
Section 981(a)(1)(C), made applicable by Title 28, United States Code, Section 2461(c), all
property, real and personal, which constitutes, or is derived from, proceeds traceable to such
violation.
12

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 13 of 17

3.

Upon conviction of a violation of Title 18, United States Code, Section 1956, as

alleged in Counts 26 through 30 of this Indictment, the defendants, RIGOBERTO CABRERA,
shall forfeit to the United States, pursuant to Title 18, United States Code, Section 982(a)(1), all
property, real and personal, that was involved in such offense, and all property traceable to such
property.
All pursuant to Title 18, United States Code, Sections 981(a)(1)(C), 982(a)(1) and 982(b)(1),
Title 28, United States Code, Section 2461(c), and the procedures set forth in Title 21, United States
Code, Section 853.

A TRUE BILL

FOREPERSON

WIFREDO A. FERRER
UNITED STATES ATTORNEY
&

DANIEL BERNSTEIN
ASSISTANT UNITED STATES ATTORNEY

ALEJANDRO O. SOTO
ASSISTANT UNITED STATES ATTORNEY

13

Case l:13-cr-20339-JIC

05/14/2013 Page 14 of 17

UNITED STATES OF AMERICA

CASE NO.

V8.

CERTIFICATE OF TRIAL ATTORNEY*

RIGOBERTO CABRERA and
CARLOS PEREZ,
Defendants.

1

Court Division: (select one)
___ .

Miami
FTL

Key West
WPB ___

FTP

Superseding Case Information:

New Defendant(s)
Number of New Defendants
Total number of counts

No

Yes

I do hereby certify that:
1.

I have carefully considered the allegations of the indictment, the number of defendants, the number of
probable witnesses and the legal complexities of the Indictment/Information attached hereto.

2.

I am aware that the information supplied on this statement will be relied upon by the Judges of this
Court in setting their calendars and scheduling criminal trials under the mandate of the Speedy T rial Act,
Title 28 U.S.C. Section 3161.

3.

Interpreter:
(Yes or No)
List language and/or dialect

Vpg
Rpanich

4.

This case will take

days for the parties to try.

5.

14_

Please check appropriate category and type of offense listed below:
(Check only one)

(Check only one)

I
II

IV
V

0 to 5 days
6 to 10 days

II to 20 days
21 to 60 days
61 days and over

Petty
Minor
Misdem.
Felony

X

Has this case been previously filed in this District Court? (Yes or No)
6.
If yes:
Case No.
________
Judge:
(Attach copy of dispositive order)
(Yes or No)
iJo__
Has a complaint been filed in this matter?
If yes:
Magistrate Case No.
Related Miscellaneous numbers:
Defendant(s) in federal custody as of
Defendant(s) in state custody as of
District of
Rule 20 from the
Is this a potential death penalty case? (Yes or No)

x
Mn

Mn

7.

Does this case originate from a matter pending in the Northern Region of the U S. Attorney’s Office prior
to October 14, 2003?
Yes

8.

Does this case ori ginate from a matter pending in the Central Region of the U.S. Attorney’s Office prior
to September 1, 2!007? ____ Yes
X
No

Daniel Bernstein
ASSISTANT UNITED STATES ATTORNEY
Florida Bar No./Court No. 0017973
•Penalty Sheet(s) attached

REV 4/8/08

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 15 of 17

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
PENALTY SHEET
Defendant's Name: RIGOBERTO CABRERA
Case No.Count #: 1
Conspiracy to Defraud the Government with Respect to Claims
Title 18. United States Code. Section 286
*Max.Penalty: Ten (10) years' imprisonment
Counts #: 2-9 and 11 -20
False. Fraudulent and Fictitious Claims
Title 18. United States Code. Section 287
*Max. Penalty: Ten (10) years' imprisonment as to each count
Count #: 21
Conspiracy to Commit Wire Fraud
Title 18. United States Code. Section 1349
*Max.Penalty: Twenty (20) years' imprisonment
Counts #: 22-25
Wire Fraud
Title 18. United States Code. Section 1343
*Max.Penalty: Twenty (20) years' imprisonment as to each count

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 16 of 17

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
PENALTY SHEET
Defendant's Name: RIGOBERTO CABRERA
Case No:
Count #: 26
Conspiracy to Commit Money Laundering
Title 18. United States Code. Section 195601)
*Max.Penalty: Ten (10) years' imprisonment
Counts #: 27-30
Money Laundering
Title 18. United States Code. Section 19S6faVl VBVD
*Max.Penalty: Twenty (20) years' imprisonment as to each count
Count #:

*Max.Penalty:
Counts #:

*Max.Penalty:

Case l:13-cr-20339-JIC Document 1 Entered on FLSD Docket 05/14/2013 Page 17 of 17

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
PENALTY SHF.F.T
Defendant's Name: CARLOS PERF.Z
Case No:
Count #: 1
Conspiracy to Defraud the Government with Respect to Claims
Title 18. United States Code. Section ?86
*Max.Penalty: Ten (10) years' imprisonment
Counts #: 2-4, 6-11, and 14-15
False, Fraudulent and Fictitious Claims
Title 18. United States Code. Section 287
*Max.Penalty: Ten (10) years' imprisonment as to each count
.

Count #: 21
Conspiracy to Commit Wire Fraud
Title 18, United States Code. Section 114Q
*Max.Penalty: Ten (10) years' imprisonment
Counts #: 22-23
Wire Fraud
Title 18, United States Code. Section 1343
*Max.Penalty: Twenty (20) years' imprisonment as to each count

A—11

!

!
I

From:
To:
Subject:
Date:

Calabrese Karyn M (Keilly)
f)"Rripn Virtnra

Question
Friday, August 30, 2013 3:18:00 PM

Hey Vicky,
So we are trying to verify the exact dates of filing for the tax return counts we provided. The dates of
the original tax returns are clear to me. But some of the dates of the amended returns are very
confusing. Since these tax returns were frivolous filings the taxpayers sometimes sent in more than
one amended return and the IMI;0LT isn't tying to the dates of filing stamped on the returns, etc.
I am concerned with the following returns:
1.) Jessica Delagao 2008 KM OX
2.) Michael Marin 2008 KMOX
I am attaching the copies of i he i eturns I provided in discovery. I am confused as to what date
would be the correct date of filing. Please help!
Karyn Calabrese
Special Agent
Internal Revenue Service
7850 SW 6th Court
Plantation, FL 33324
Stop 6501- KR
office: 954-423-7257
fax: 954-423-7655

A—12

N

A-12
STATUTORY & OTHER PROVISIONS
UNITED STATES CONSTITUTION, AMENDMENT FIVE
No person shall be held to answer for a capital, or other­
wise infamous crime, unless on a presentment or indictment of a
Grand Jury, except in cases arising in the land or naval forces,
or in the militia, when in actual service in time of war or public
danger; nor shall any person be subject for the same offense to
be twice put in jeopardy of life or limb, nor shall be compelled
in any criminal case to be a witness against himself, nor be
deprived of life, liberty or property, without due process of law;
nor shall private property be taken for public use without just
compensation.
UNITED STATES CONSTITUTION, AMENDMENT SIX
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of the
State and district wherein the crime shall have been committed,
which district shall have been previously ascertained by law, and
to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
TITLE 28, UNITED STATES CODE, SECTION 455
(a) Any justice, judge, or magistrate of the United States shall
disqualify himself in any proceedings in which his impar­
tiality might reasonably be questioned.
(b) He shall also disqualify himself in the

following circum­

stances:
(1) Where he has a personal bias or prejudice concerning a
party, or personal knowledge of disputed evidentiary
facts concerning the proceedings;
(2) Where in private practice he served as lawyer in the
matter in controversy,
or a lawyer with whom he
previously practiced law served during such association
as a lawyer concerning the matter, or the judge or such
lawyer has been a material witness concerning it.

(3)

Where
such

he has served in governmental employment and in
capacity participated as counsel,
advisor or

material witness concerning the proceeding or expressed
an opinion concerning the merits of the particular case
in controversy;
(4)

He knows that he, individually or financially, or his
spouse or minor child residing in his household, has a
financial interest in the subject matter in controversy
or in a party to the proceeding, or any other interest
that could be substantially affected by the outcome of
the proceeding;
(5) He or his spouse, or a person within the third degree
of relationship to either of them, or the spouse of such
a person:
(i)

is a party to the proceeding, or an officer,
director or trustee of a party;
(ii) is acting as a lawyer in the proceeding;
(iii) is known by the judge to have an interest that
could be substantially affected by the outcome of
the proceeding;
(iv) is to the judges knowledge likely to be a material
witness in the proceeding;
(e) No justice, judge, or magistrate shall accept from the parties
to the proceeding a waiver of any ground for disqualification
enumerated in subsection (b). Where the ground for disqualifi­
cation arises only under subsection (a) , waiver may be
accepted provided it is preceded by a full disclosure on the
record of the basis for disqualification.
Title 28, United States Code, Section 2253
(a) In a habeas corpus proceeding or a proceeding under section
2255 before a district judge, the final order shall be subject
to review on appeal by the court of appeals for the circuit
in which the proceeding is held
(c) unless a circuit justice or judge issues a certificate
of appealability, an appeal may not be taken to the court
of appeals from the final order in a proceeding under
section 2255.

(2) A certificate of appealability may issue under para­
graph (1) only if the applicant has made a substantial
showing of the denial of a constitutional right.

